<html>
<title> - ADVANCEMENTS AND CONTINUAL CHALLENGES IN THE PAROLE, SUPERVISED RELEASE AND REVOCATION OF D.C. CODE OFFENDERS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
ADVANCEMENTS AND CONTINUAL CHALLENGES IN THE PAROLE, SUPERVISED RELEASE 
                 AND REVOCATION OF D.C. CODE OFFENDERS 

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON FEDERAL WORKFORCE,
                    POSTAL SERVICE, AND THE DISTRICT
                              OF COLUMBIA

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 11, 2008

                               __________

                           Serial No. 110-106

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform

                              ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

46-110 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


















              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
EDOLPHUS TOWNS, New York             TOM DAVIS, Virginia
PAUL E. KANJORSKI, Pennsylvania      DAN BURTON, Indiana
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
DANNY K. DAVIS, Illinois             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       TODD RUSSELL PLATTS, Pennsylvania
WM. LACY CLAY, Missouri              CHRIS CANNON, Utah
DIANE E. WATSON, California          JOHN J. DUNCAN, Jr., Tennessee
STEPHEN F. LYNCH, Massachusetts      MICHAEL R. TURNER, Ohio
BRIAN HIGGINS, New York              DARRELL E. ISSA, California
JOHN A. YARMUTH, Kentucky            KENNY MARCHANT, Texas
BRUCE L. BRALEY, Iowa                LYNN A. WESTMORELAND, Georgia
ELEANOR HOLMES NORTON, District of   PATRICK T. McHENRY, North Carolina
    Columbia                         VIRGINIA FOXX, North Carolina
BETTY McCOLLUM, Minnesota            BRIAN P. BILBRAY, California
JIM COOPER, Tennessee                BILL SALI, Idaho
CHRIS VAN HOLLEN, Maryland           JIM JORDAN, Ohio
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont
------ ------

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
               Lawrence Halloran, Minority Staff Director

Subcommittee on Federal Workforce, Postal Service, and the District of 
                                Columbia

                        DANNY K. DAVIS, Illinois
ELEANOR HOLMES NORTON, District of   KENNY MARCHANT, Texas
    Columbia                         JOHN M. McHUGH, New York
JOHN P. SARBANES, Maryland           JOHN L. MICA, Florida
ELIJAH E. CUMMINGS, Maryland         DARRELL E. ISSA, California
DENNIS J. KUCINICH, Ohio, Chairman   JIM JORDAN, Ohio
WM. LACY CLAY, Missouri
STEPHEN F. LYNCH, Massachusetts
                      Tania Shand, Staff Director
























                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 11, 2008...................................     1
Statement of:
    Brown, Tyrone, previously incarcerated, Hope Village 
      Residential Reentry Center; and Anthony Cunningham, 
      previously incarcerated....................................    10
        Brown, Tyrone............................................    10
        Cunningham, Anthony......................................    11
    King, Rufus G., III, chief judge, D.C. Superior Court; and 
      Betty Ballester, president, D.C. Superior Court Trial 
      Lawyers Association........................................    94
        Ballester, Betty.........................................   102
        King, Rufus G., III......................................    94
    Quander, Paul, director, Court Services and Offender 
      Supervision Agency; Chief Isaac Fulwood, commissioner of 
      the U.S. Parole Commission; Avis E. Buchanan, director, 
      Public Defender Service for the District of Columbia; and 
      James Austin, Ph.D., president, the JFA Institute..........    20
        Austin, James............................................    59
        Buchanan, Avis E.........................................    39
        Fulwood, Chief Isaac.....................................    32
        Quander, Paul............................................    20
    Snyder, George, warden, Rivers Correctional Institution......    81
Letters, statements, etc., submitted for the record by:
    Austin, James, Ph.D., president, the JFA Institute, prepared 
      statement of...............................................    62
    Ballester, Betty, president, D.C. Superior Court Trial 
      Lawyers Association, prepared statement of.................   103
    Buchanan, Avis E., director, Public Defender Service for the 
      District of Columbia, prepared statement of................    41
    Davis, Hon. Danny K., a Representative in Congress from the 
      State of Illinois, prepared statement of...................     4
    Fulwood, Chief Isaac, commissioner of the U.S. Parole 
      Commission, prepared statement of..........................    35
    King, Rufus G., III, chief judge, D.C. Superior Court, 
      prepared statement of......................................    97
    Marchant, Hon. Kenny, a Representative in Congress from the 
      State of Texas, prepared statement of......................     7
    Quander, Paul, director, Court Services and Offender 
      Supervision Agency, prepared statement of..................    23
    Snyder, George, warden, Rivers Correctional Institution, 
      prepared statement of......................................    84


ADVANCEMENTS AND CONTINUAL CHALLENGES IN THE PAROLE, SUPERVISED RELEASE 
                 AND REVOCATION OF D.C. CODE OFFENDERS

                              ----------                              


                        TUESDAY, MARCH 11, 2008

                  House of Representatives,
Subcommittee on Federal Workforce, Postal Service, 
                      and the District of Columbia,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m. in room 
2154, Rayburn House Office Building, Hon. Danny K. Davis 
(chairman of the subcommittee) presiding.
    Present: Representatives Davis of Illinois, Norton, 
Cummings, Kucinich, and Marchant.
    Staff present: Tania Shand, staff director; William Miles, 
professional staff member; Lori J. Hayman, counsel; LaKeshia N. 
Myers, clerk; Howie Denis, minority senior professional staff 
member; Patrick Lyden, minority parliamentarian and member 
services coordinator; and Benjamin Chance, minority clerk.
    Mr. Davis of Illinois. The subcommittee will come to order.
    Welcome Ranking Member Marchant, members of the 
subcommittee, and hearing witnesses, and all of those in 
attendance. Welcome to the Federal Workforce, Postal Service, 
and the District of Columbia Subcommittee hearing on 
Advancements and Continued Challenges in the Parole, Supervised 
Release and Revocation of D.C. Code offenders. The hearing will 
examine how the National Capital Revitalization and Self-
Government Improvement Act of 1997 is being implemented with 
respect to the District's parole, supervised release, and 
revocation systems. We will seek to determine whether the 
changes made have been positive and whether additional changes 
are warranted.
    Hearing no objection, the Chair, ranking member, and 
subcommittee members will each have 5 minutes to make opening 
statements, and all Members will have 3 days to submit 
statements for the record.
    I say to all of you good afternoon, welcome to today's 
hearing to examine the advancements and challenges in the 
parole, supervised release, and revocation of D.C. Code 
offenders post-enactment of the National Capital Revitalization 
and Self-Government Improvement Act of 1997, often referred to 
as the Revitalization Act.
    As many of us here today are aware, policymakers are 
working to find solutions and the means for improving the 
transition of ex-offenders back into society, thereby enhancing 
public safety. It is an issue that had long been ignored, but 
in recent years has received increased public and congressional 
attention.
    In fact, just recently the Pew Center on the States issued 
a report on the Nation's alarmingly high incarceration rates 
and found that more than 1 in 100 adult Americans are in jail 
or prison, which is an all-time high. The report also 
discovered that 1 in 9 Black men aged 20 to 34 is behind bars, 
and for Black women aged 35 to 39, the figure is 1 in 100, 
compared with 1 in 355 for White women in the same age group. 
Clearly, we have a great deal of work ahead of us in this 
policy area.
    Ensuring the success for transition from confinement to 
community has long been a chief policy concern of mine, which 
is why I have been pushing so hard for consideration and 
passage of my bill, H.R. 1593, the Second Chance Act. This 
piece of legislation would promote ex-offender reentry reforms 
by employing a comprehensive Government-led approach to 
eliminating barriers to reintegration for those coming out of 
prison and increasing access to critical transitional services 
for ex-offenders.
    The goal behind the Second Chance Act is to close the 
revolving door of ex-offenders going in and out of 
incarceration by providing additional funding opportunities 
that would assist with mentoring and housing. It is my hope 
that the Second Chance Act will become law soon so that we can 
begin to deliver to communities and cities, such as the 
District of Columbia, the additional resources they need to 
support the successful reentry of ex-offenders.
    Since adoption of the Revitalization Act and the massive 
restructuring of D.C.'s criminal justice system, a host of new 
policies, procedures, programs, and partnerships have been 
developed for the purpose of improving public safety in the 
District of Columbia. The Revitalization Act sought to reduce 
recidivism among D.C. Code offenders and to enhance the city's 
strategies for increasing public safety. Ten years after 
enactment of the Revitalization Act, the District now serves as 
an example for countless other localities grappling with 
implementing effective felon reentry systems and practices.
    The ex-offenders in the District of Columbia, like ex-
offenders throughout the Nation, face tremendous barriers, such 
as poor physical and mental health, homelessness, lack of 
education or employment opportunities, drug and alcohol 
dependency, and in their transition from prison to society, 
these conditions often result in ex-offenders being rearrested 
or having their parole or supervised release revoked, the very 
outcome that we are fighting to prevent.
    It is estimated that every year nearly 2,500 ex-offenders 
return to the District after completing their sentences. This 
is an average of five ex-offenders per day. Further, it is 
believed that as many as 60,000 D.C. residents are felons. 
Although these statistics may be somewhat disheartening, what 
is encouraging are the persons, organizations, and government 
agencies that work around the clock to assist the ex-offender 
population with their reentry into society.
    It is my hope that today's hearing will provide us an 
opportunity to discuss the current challenges and solutions to 
offender reentry in the District. Today's hearing will also 
examine the progress Rivers Correctional Institution has made 
in implementing pre-release programs and two pending 
legislative measures pertaining to the D.C. courts and the 
administration of judicial proceedings.
    I would like to thank my colleague, Congresswoman Eleanor 
Holmes Norton, for her tireless work in this policy area.
    I ask unanimous consent that the statements of the Council 
for Court Excellence, Phillippa Fornasea of the D.C. Prisoner 
Project, and the statement of Tene Dolphin, chief of staff to 
Mayor Adrian Fenty, be entered into the record.
    I thank you all and look forward to hearing testimony from 
today's witnesses.
    [The prepared statement of Hon. Danny K. Davis follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Davis of Illinois. Now I would like to yield to the 
ranking member of this subcommittee, the Honorable Mr. 
Marchant.
    Mr. Marchant. Thank you, Chairman Davis. Thank you for 
holding this hearing today on the status of the offender 
supervision program in the District of Columbia.
    Ten years ago, as part of the National Capital 
Revitalization and Self-Government Improvement Act, the Federal 
Government assumed control over the District of Columbia's 
court and criminal justice systems. Too often, Congress enacts 
legislation but then never takes the time to assess where the 
legislation actually had a beneficial impact on the issue it 
was enacted to resolve; therefore, I applaud the chairman for 
taking the time to look at the progress made over the past 
decade to determine whether additional adjustments are 
necessary.
    It is important for this subcommittee to exercise its 
oversight of how the D.C. parole, supervised release, and 
revocation functions are working.
    All of our panelists today are in some way on the front 
lines of our efforts to supervise offenders and reintegrate 
them back into our society. I look forward to hearing from each 
of the panelists and what they believe are some of the biggest 
challenges facing the District's criminal justice system. This 
information will hopefully help us ensure our offender 
supervisory programs, that they are as effective as possible, 
both here in the Nation's Capital as well as in the Nation, at 
large.
    Thank you.
    [The prepared statement of Hon. Kenny Marchant follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Davis of Illinois. Thank you very much, Mr. Ranking 
Member.
    Representative Norton, do you have any comments?
    Ms. Norton. Thank you very much, Mr. Chairman.
    I want to thank Chairman Danny Davis for his willingness to 
do continuing oversight of the transfer of an entire State 
prison system to the Federal Government's Bureau of Prisons for 
the first time in U.S. history. Federal jurisdiction of D.C. 
prison inmates, reentry services, and parole fit nicely with 
the Chair's own path-breaking leadership on inmate reentry 
issues.
    Chairman Davis' persistent and pioneering work as lead 
sponsor of the bipartisan Second Chance Act, which I was 
pleased to cosponsor, led to House passage in November.
    I had requested a continuing set of hearings that are 
particularly necessary now because the BOP, the Court Services 
and Offender Supervision Agency, and the U.S. Parole Commission 
have been operating for a decade under the National Capital 
Revitalization and Self-Government Improvement Act of 1997 
without the necessary and expected oversight from the committee 
of jurisdiction. A great deal is at stake, beginning with what 
ex-offenders do with the rest of their often young lives, but 
much more, as well.
    Big city crime is often fed by ex-offenders who come to 
prison from the most desperate and deprived layers of society 
and, ironically, may get their first chance in life behind 
prison bars or through a reentry program. Beyond the victims of 
crime, other victims quickly multiply, to include especially 
the children and families of ex-offenders.
    Thus far, subcommittee staff, my staff, and I have visited 
Rivers Correctional Institution in Winston, NC, and the BOP 
Facility for Men at Cumberland, MD. This spring we will visit a 
facility housing D.C. female inmates and will seek the first 
hearing on D.C. women in BOP facilities.
    Perhaps the most difficult issue resulting from the 
transfer of local jurisdiction to Federal authorities is the 
present location of 7,000 D.C. prisoners incredibly at 75 
different facilities in 33 States, contrary to the intent of 
the Revitalization Act, which sought to afford close proximity 
of District prisoners to the District in keeping with 
undisputed penology.
    Prisoners who have not laid eyes on their relatives or 
children, their minister, or caring friends return to civil 
society burdened and handicapped, not only by absence but by 
distance, confounding successful reentry.
    I will shortly be presenting some ideas for corrective 
action to BOP officials and will seek to work with them toward 
a solution.
    The first hearing on D.C. inmates since transfer to Federal 
authorities occurred in October, resulting from our initial 
investigation, showed that D.C. prisoners did not always have 
access to services equal to those offered other inmates at BOP 
facilities. We appreciate the rapid response to the October 
hearing by BOP Director Harley Lapin and the important changes 
that have resulted. We welcome Rivers' Warden, George Snyder, 
who will testify today regarding the status of the issues 
addressed at that hearing, particularly the creation of a 
state-of-the-art drug rehabilitation program coming to Rivers 
patterned on the well-regarded program available at BOP 
facilities, and new job-related training programs.
    However, with the goals of the first hearing for D.C. 
prisoners behind bars in sight, the major purpose of today's 
hearing is to review Federal policy and responsibility upon 
release for ex-offenders. We seek answers to a number of 
troubling questions. For example, do D.C. prisoners serve 
longer sentences for comparable crimes than prisoners elsewhere 
in the United States? If so, why? And are such sentences 
justified?
    Are there specific standards for sending a parolee back to 
prison by revoking parole, such as the nature of the offense, 
current employment, payment of child support, and the like?
    What is the purpose of denying credit for so-called street 
time or time spent after release without infractions?
    What is the effect of parole revocation for minor 
infractions on employment of the ex-offender?
    Does the U.S. Parole Commission operate on a zero-tolerance 
policy, even for minor infractions? And, if so, under what 
statutory authority?
    Have the parole revocation policies of the Parole 
Commission had the appropriate deterrent effect, or is this 
policy counter-productive?
    Were the policies now in use intended by the Revitalization 
Act of 1997?
    Are such policies in keeping with the considerable 
investment Federal taxpayers make in CSOSA to facilitate 
reentry, or in inmates, themselves, who participate in the best 
job training and drug rehabilitation services offered by any 
prison system in the world, with the goal of preventing 
recidivism?
    In short, are these policies in the best interest of the 
District of Columbia residents, of inmates, of their families? 
Who do they serve?
    We look forward to the testimony of U.S. Parole 
Commissioner Isaac Fulwood, Jr., former Metropolitan Police 
Department Chief, for the considerable insights and experiences 
he brings to the issues before us today. We welcome Tyrone 
Brown, an ex-offender who got his GED while incarcerated, 
remained crime free, but was returned to prison while on parole 
for minor infractions, and, as a result, lost his street time.
    I ask unanimous consent also to receive the testimony of 
Anthony Cunningham, a barber who had the benefit of a new 
alternative system of sanctions instead of being re-
incarcerated. Paul Quander, director of Court Services and 
Offender Supervision Agency; Avis Buchanan, director, Public 
Defender Services for the District of Columbia; and James 
Austin, an expert on D.C. prison and parole issues, who will 
present findings from a report addressing the matters at issue.
    We also are pleased to receive testimony from Chief Judge 
Rufus King concerning a bill to increase the number of Superior 
Court judges, as well as Betty Ballester, esq., regarding an 
increase in the hourly rates of lawyers who are appointed by 
the Superior Court to represent indigent defendants.
    I very much appreciate the graciousness of the Chair in 
moving forward with yet another hearing on these issues.
    Mr. Davis of Illinois. Thank you, Delegate Norton.
    Without objection, Mr. Cunningham would be permitted to 
testify and have his testimony entered into the record.
    Mr. Cummings, do you have a statement?
    Mr. Cummings. Mr. Chairman, I will submit my statement in 
writing. Thank you.
    Mr. Davis of Illinois. Thank you very much, Mr. Cummings.
    We would like to ask if our first panel would be seated: 
Mr. Tyrone Brown and Mr. Anthony Cunningham.
    Mr. Tyrone Brown is a 23-year-old D.C. Code offender who 
recently returned to the community after having his parole 
revoked. While incarcerated, Mr. Brown was able to earn his 
GED, as well as obtain a professional plumbing certificate. 
Tyrone is currently employed and is a resident of the Hope 
Village Residential Reentry Center.
    Welcome, Mr. Brown. Thank you very much.
    Mr. Anthony Cunningham is a licensed barber in the District 
of Columbia and a D.C. Code offender. Mr. Cunningham would have 
had his parole revoked and lost credit for his street time over 
a minor infraction; instead, he participated in an alternative 
system involving reprimands, sanctions, that kept him from 
being returned to prison.
    Gentlemen, let me thank both of you.
    It is the policy of this committee that all witnesses be 
sworn in, so if you would join me in standing and raise your 
right hands.
    [Witnesses sworn.]
    Mr. Davis of Illinois. The record will show that the 
witnesses answered in the affirmative.
    Gentlemen, your entire statement is already included in the 
record. We ask that you take 5 minutes and summarize what you 
have to say.
    The green light that is there is an indicator of the time. 
The green light indicates that you have 5 minutes. When it gets 
down to yellow that indicates that you have a minute left, and 
we ask you to summarizes and sum up. And then, of course, the 
red light means the same as a red light, I guess, out on the 
street, that you are supposed to stop.
    So thank you very much. We are delighted that you are here. 
We will begin with Mr. Brown.

   STATEMENTS OF TYRONE BROWN, PREVIOUSLY INCARCERATED, HOPE 
  VILLAGE RESIDENTIAL REENTRY CENTER; AND ANTHONY CUNNINGHAM, 
                    PREVIOUSLY INCARCERATED

                   STATEMENT OF TYRONE BROWN

    Mr. Brown. I think I made parole 2003, and from 2003 to now 
I was sent back for violation, minor violations. My street time 
was took. Every time I violated, I was working and had my own 
place. They took that. You know, they just snatched all that 
from me. I feel as though it is like a triple jeopardy, you 
know, because while they have taken our street time, it is like 
we will never get off parole. It just constantly go up. I feel 
as though that ain't right for us. Rivers, they got a lot of 
programs at Rivers, but it ain't going to do enough for nobody 
that is like me that is already got a GED, and some of their 
programs, it is more like you got to fit a criteria to get it, 
like they got an HVAC class up there. I think it was 18 to 24 
you got it. That is the only way you could get in. I'm 30, 31, 
32, so that was, like, a bummer right there.
    As far as revocation hearings, when you go in in front of 
them, you are saying that you got a job, you got a place that 
you don't want to lose this. All right, I caught a dirty urine, 
but is there another way of, you know, trying to correct the 
solution. I don't think no one giving us jail time is going to 
change nothing, you know. I mean, I got an addiction. It is a 
disease. Jail time shouldn't be the solution of it. We should 
find another way of going, because people got family, jobs.
    I understand I violated, but it is got to be a better way. 
I think so.
    That is basically it, what I have to say.
    Mr. Davis of Illinois. Thank you very much. We will have 
some questions after Mr. Cunningham finishes.
    Mr. Cunningham, you may begin.

                STATEMENT OF ANTHONY CUNNINGHAM

    Mr. Cunningham. How you doing? I remember my first time I 
had been incarcerated. That was back in 1985. Back then they 
had a lot of programs where you were able to go to to get all 
the benefit that you really wanted. That is how I got my first 
barber license. During the previous time, come out, I was doing 
good after doing my 2-year sentence.
    I went straight from 1987 all the way to 2001. I committed 
another crime and was back incarcerated. And the last time I 
remembered that, you know, where I continue on to do the things 
I used to do. So after doing a 3-year sentence to 2001 I came 
home, got back on the right path, and doing the things that I 
really needed to do at that particular time.
    The program, when I went back out and did something I had 
no business doing, and I was getting back, getting high, 
instead of sending me back to prison they sent me to a program, 
and I was an outpatient, and I had to go there.
    The program was a really good program and it helped me and 
made me realize some of the things I really wanted to do. If 
you are really into that program, you really have to want it 
and not be, you know, a person that thinks that you can do what 
you really wanted to do.
    I'm kind of nervous, so excuse me.
    Mr. Davis of Illinois. That is all right. We all were.
    Mr. Cunningham. The program is a regular program. They also 
have an after-program where you go into an outpatient program 
if they feel that you are not ready. The program really helps 
you out, it really gives you the good benefit to get back on 
the right track. That is what happened to me. I was just on the 
edge of losing my job, being back incarcerated, and not able to 
do the things I needed to do for my kid, so that was the most 
important thing to me. After the death of my grandmother and my 
grandfather, it was a shock to me, so I had to do something way 
different from the things I used to do back in the past.
    Mr. Davis of Illinois. All right. Thank you both. Thank you 
very much.
    Let me ask you, Mr. Brown, what were you incarcerated for?
    Mr. Brown. I was incarcerated for aggravated assault, 1997.
    Mr. Davis of Illinois. And how long were you incarcerated?
    Mr. Brown. Five years.
    Mr. Davis of Illinois. And what was done to help you while 
you were in prison?
    Mr. Brown. Of course, through the 5-years I had anger 
management programs, several of them, and, like I said, they 
had GED programs, and I got my GED while I was there.
    Mr. Davis of Illinois. How far did you go in regular high 
school?
    Mr. Brown. Seventh grade.
    Mr. Davis of Illinois. So you dropped out at seventh grade?
    Mr. Brown. I passed to the eighth. Never went.
    Mr. Davis of Illinois. You passed to the eighth and never 
went. What caused, if you remember, you to drop out at that 
point?
    Mr. Brown. I was running the streets.
    Mr. Davis of Illinois. What, at 13, 14?
    Mr. Brown. Yes, 13, 14, running the streets. I was in and 
out of foster care. Yes, just hanging around, just hanging out 
in the streets.
    Mr. Davis of Illinois. Yes. Did the anger management help 
you? Would you say that the anger management assistance that 
you got while incarcerated helped you?
    Mr. Brown. Yes. It taught me how to settle differences 
without violence. There are better ways than violence. So it 
helped me a lot. Then they had a ``cage of rage,'' so I went 
through a few.
    Mr. Davis of Illinois. I am delighted to hear that. Would 
you recommend that as a way of helping individuals, especially 
those individuals who may have gotten into altercations and----
    Mr. Brown. Yes.
    Mr. Davis of Illinois [continuing]. That is why they ended 
up incarcerated?
    Mr. Brown. Yes.
    Mr. Davis of Illinois. Was there any other infractions that 
you committed, or was it just that?
    Mr. Brown. That was my only charge. That is why I am on 
parole, as far as when I was paroled 2003, I never caught 
another charge.
    Mr. Davis of Illinois. How long did it take you to get your 
GED?
    Mr. Brown. It took me--when I was in Memphis, TN, it took 
me, like 6 months to get my GED.
    Mr. Davis of Illinois. And so you dropped out of high 
school--well, you never went to high school?
    Mr. Brown. I never went.
    Mr. Davis of Illinois. But you dropped out in eighth grade.
    Mr. Brown. Yes.
    Mr. Davis of Illinois. And you were able to get a GED in a 
few months?
    Mr. Brown. Yes. I always was smart, but I just made the 
wrong choices.
    Mr. Davis of Illinois. That is quite smart to be able to 
actually do a GED, not having done any high school, and just 
kind of being out on the streets and that kind of thing. I used 
to teach GED.
    Mr. Brown. Yes.
    Mr. Davis of Illinois. So I know a little bit about it. 
Yes, and now you have a license to----
    Mr. Brown. Diploma.
    Mr. Davis of Illinois. Your diploma?
    Mr. Brown. Yes.
    Mr. Davis of Illinois. That is fantastic. So actually you 
have been helped by some of these programs, right?
    Mr. Brown. Yes. Yes.
    Mr. Davis of Illinois. All right. So you would say that the 
programs have actually helped you?
    Mr. Brown. Yes. Only if you want to be helped.
    Mr. Davis of Illinois. All right.
    Mr. Cunningham, let me ask you, How many children do you 
have?
    Mr. Cunningham. I have two kids.
    Mr. Davis of Illinois. You have two kids?
    Mr. Cunningham. Yes.
    Mr. Davis of Illinois. Married?
    Mr. Cunningham. No.
    Mr. Davis of Illinois. No. But you still have a 
relationship and have a relationship with your children?
    Mr. Cunningham. Yes.
    Mr. Davis of Illinois. I heard you indicate that you wanted 
to be able to assist your children.
    Mr. Cunningham. Right.
    Mr. Davis of Illinois. And help them. How would you say 
that the programs helped you while you were incarcerated?
    Mr. Cunningham. I can say the program really helped me 
because--that was a trade that I really liked to do--to cut 
hair. It helped me a lot. It helped me to learn that to get 
along with other people and communicate, and it does a very 
good job. It was something I really liked to do.
    Mr. Davis of Illinois. Did you have any trouble getting 
your barber's license?
    Mr. Cunningham. No, sir.
    Mr. Davis of Illinois. It is interesting that in my State 
until just recently it was against the law for a person to get 
licensed even after they had gone through a training program 
while in prison. It was still against the law.
    Mr. Brown. I still went to school when I got out. I 
actually had to do the hours in Bladensburg, and then I got my 
license and transferred it over to D.C.
    Mr. Davis of Illinois. Well, let me just congratulate both 
of you.
    I will stop at this point and ask Mr. Marchant if he has 
questions.
    Mr. Marchant. Thank you both for coming today and speaking 
to us.
    Is there anything that you would like to bring to the 
committee's attention as a suggestion that could have improved 
your training, anything in the system that you found was over-
burdensome to you, and difficulties that you had in your 
rehabilitation? Mr. Brown.
    Mr. Brown. Well, I mean, when I was in the only burden was 
the means of money, like a lot of people don't have family that 
could send them money. They pay you hourly, like $0.12 an hour, 
and I am just--I feel as though when I was at Rivers you can 
take up correspondence classes, but if you don't have the 
means, the money to get it, and they don't have that much--you 
know, $0.12 an hour is like you are barely paying for your 
soap. That is my only burden there, that they don't have the 
means of paying people to take care of themselves. Whereas I 
might not have anybody sending me money or look after me, I got 
to look after myself. That, alone, brings conflict in the 
institution.
    That is all I got to say.
    Mr. Marchant. OK. Mr. Cunningham.
    Mr. Cunningham. I agree with what he's saying. They do need 
more programs that can keep each individual inmate on the right 
track, because as long as there is no program for them to do 
something to rehabilitate them, when they get on the outside 
into society, 9 out of 10, a lot of them wind up back doing the 
same thing they normally used to do. So a lot of programs. When 
I was in we had a lot of programs going on. Now it is just like 
a lot of programs have been taken.
    For them to rehabilitate themselves, able to get the job, 
the benefit for themselves, to be able to be on the right 
track, if they can get that, I believe possibly that something 
can work out better for each and every one of them.
    Mr. Marchant. Thank you very much.
    Mr. Davis of Illinois. Thank you very much, Mr. Marchant.
    Ms. Norton.
    Ms. Norton. Thank you very much, Mr. Chairman.
    I want to thank Mr. Brown and Mr. Cunningham for coming 
forward, for your candor, for your courage. Perhaps there are 
people who could come to testify about you. Your first-hand 
testimony is extremely valuable to us, particularly given what 
I understand are quite different circumstances you each faced 
once there was a parole violation.
    Now, the nature of your parole violation, Mr. Brown, was 
that a dirty urine?
    Mr. Brown. Yes, and not going to see my parole officer.
    Ms. Norton. All right. And that was for marijuana?
    Mr. Brown. Yes.
    Ms. Norton. All right.
    Mr. Cunningham, what was the nature of your parole 
violation?
    Mr. Cunningham. My parole violation was based on for me to 
go into an outpatient program.
    Ms. Norton. No, was your parole violation----
    Mr. Cunningham. Was for a dirty urine.
    Ms. Norton. Was for a dirty urine?
    Mr. Cunningham. Yes.
    Ms. Norton. All right.
    Now, Mr. Chairman, we have before us two young men.
    How old are you, Mr. Brown?
    Mr. Brown. I'm 32.
    Ms. Norton. Mr. Cunningham.
    Mr. Cunningham. Forty.
    Ms. Norton. Both within the same relative age group. One 
gets sent back to prison, probably before the alternative 
program Mr. Cunningham was able to take advantage of was used.
    Mr. Brown, when you were sent back, when your parole was 
revoked and you were sent back to prison, how long were you re-
incarcerated? How long did you serve that time?
    Mr. Brown. Twelve months.
    Ms. Norton. How far gone was your parole before that, the 
parole, the amount of time you were under the supervision of 
the authorities? How much more time would you have had on 
parole?
    Mr. Brown. 2013.
    Ms. Norton. So you got no credit for the time you had 
already spent on the street?
    Mr. Brown. No. They took that and put it on the back. See, 
my original charge was 5 to 15, but every time I violate parole 
they put it on the back number, and that just makes the back 
number get bigger and bigger instead of getting smaller and 
smaller.
    Ms. Norton. Let me then contrast this with what happened to 
Mr. Cunningham.
    At the time that you also had a dirty urine, was it also 
for marijuana?
    Mr. Cunningham. Yes, ma'am.
    Ms. Norton. What was the procedure you went through that 
resulted in your being sanctioned to go to a drug 
rehabilitation program? How did that work?
    Mr. Cunningham. The program actually worked, you know. They 
actually questioned, asked you what is your drug of choice. 
They asked you what would you benefit out of the program? What 
did you really want out of life? It is a lot of things they ask 
you.
    Ms. Norton. Before deciding whether or not you would have 
alternative sanctions, sanctions other than going back to 
prison?
    Mr. Cunningham. Yes.
    Ms. Norton. And you satisfied the Parole Commission that 
the sanctions were the better alternative for you?
    Mr. Cunningham. Yes, ma'am.
    Ms. Norton. What was the year of your violation?
    Mr. Cunningham. The violation, first time after for years 
of being clean, being on parole. I had 1 year left.
    Ms. Norton. I mean before you got sanctioned, this 
sanction, this alternative sanction. What was the year that 
they used this alternative sanction and sent you to a drug 
rehabilitation program?
    Mr. Cunningham. Basically I had to complete the sanction 
and stay away from the area that I used to be in.
    Ms. Norton. What year was that, Mr. Cunningham?
    Mr. Cunningham. That was in 2007.
    Ms. Norton. Now, Mr. Brown, what was the year you were sent 
back to prison?
    Mr. Brown. It was 2004. I violated parole three times.
    Ms. Norton. For different infractions?
    Mr. Brown. Yes.
    Ms. Norton. Did any of these infractions involve weapons?
    Mr. Brown. No. No new charge. When I violated it was just 
all marijuana charges.
    Ms. Norton. None of these involved a crime?
    Mr. Brown. Dirty urine. No, it was just dirty urine. When I 
seen the revocation hearing, I asked them, you know, can I have 
an inpatient drug program. All three times they denied it and 
said----
    Ms. Norton. Have either of you had access to any kind of 
drug rehabilitation while you had been incarcerated?
    Mr. Cunningham. No, ma'am. Not while I was incarcerated.
    Ms. Norton. How about you, Mr. Brown?
    Mr. Brown. The 40-hour.
    Ms. Norton. The 40-hour, which is the alternative to the 
500-hour program----
    Mr. Brown. Exactly.
    Ms. Norton [continuing]. That we are trying to get at 
Rivers.
    Mr. Brown. Yes.
    Ms. Norton. So you had had no state-of-the-art drug 
rehabilitation program?
    Ms. Ballester. No.
    Ms. Norton. Both of you are typical of non-violent 
offenders in the District of Columbia who are there very often 
for crimes related to drug offenses, obviously without some 
kind of program to help get rid of the dependency before you 
are out, the kind of dependency that you still had.
    Mr. Brown went to the seventh grade but quickly got his GED 
once he was in prison. That is what I mean by some people get 
their first chance behind bars.
    Mr. Brown. Yes.
    Ms. Norton. Or at least realize what they can do behind 
bars.
    Mr. Cunningham, how about you?
    Mr. Cunningham. I completed school.
    Ms. Norton. Where did you go to school?
    Mr. Cunningham. McKinley Tech.
    Ms. Norton. You went to McKinley. You have children, Mr. 
Cunningham?
    Mr. Cunningham. Yes, ma'am.
    Ms. Norton. How about you, Mr. Brown?
    Mr. Brown. Excuse me?
    Ms. Norton. Do you have children?
    Mr. Brown. No, ma'am.
    Ms. Norton. Mr. Cunningham, do you support your children?
    Mr. Cunningham. Yes.
    Ms. Norton. I am going to say, Mr. Brown, you have managed 
to get jobs. Now, Mr. Cunningham has trained to be a barber, so 
he has a skill that he can carry around. I was impressed by the 
fact that you have managed to get jobs when, in fact, my office 
has a job fair every year, and one of the problems we find with 
ex-offenders who come is they have difficulty getting jobs. Did 
you have a job at the time that this dirty urine showed up?
    Mr. Brown. Excuse me?
    Ms. Norton. Were you employed at the time that you were re-
incarcerated for having dirty urine?
    Mr. Brown. Yes.
    Ms. Norton. Didn't anybody ask you at the time, whoever it 
was who sanctioned you to go back to prison, did they ask you 
if you had a job?
    Mr. Brown. Yes.
    Ms. Norton. When you said you had a job, what was their 
response?
    Mr. Brown. Their response was when I asked them can I be 
put in a drug program--I got a job, I got an apartment, if I 
get locked up I'm going to lose all of it, and can we find a 
better solution--they was just saying, they told me that they 
think marijuana is not a habit-forming drug.
    Ms. Norton. They think marijuana is not a habit-forming 
drug?
    Mr. Brown. Yes.
    Ms. Norton. But they were going to send you to prison? We 
don't send people to prison for marijuana usually in this 
country.
    Mr. Brown. Well, that is what they told me. I cannot get a 
drug treatment for marijuana.
    Ms. Norton. I see. I see what you are saying. It is not 
habit-forming. I do see the circular nature of this reasoning.
    Mr. Brown. Exactly.
    Ms. Norton. It is not habit-forming, so you don't need drug 
treatment, so you go to the slammer instead. OK.
    Mr. Brown. Yes.
    Ms. Norton. I understand from the interviews that have been 
done of you that you worked in Burger King?
    Mr. Brown. Yes.
    Ms. Norton. You worked Giant. You worked----
    Mr. Brown. I work Giant right now.
    Ms. Norton. How were you able to get these positions? What 
happened? First, let me go back. When you lost your position 
because you were re-incarcerated, were you able to get that job 
when you came back out?
    Mr. Brown. No.
    Ms. Norton. How about your apartment that you said you had?
    Mr. Brown. No, I couldn't get that back. I lost that.
    Ms. Norton. So you lost your apartment?
    Mr. Brown. Yes.
    Ms. Norton. And you lost your job?
    Mr. Brown. Yes.
    Ms. Norton. So you had to get out and start looking for 
these jobs all over again. How did you manage to do that?
    Mr. Brown. Well, I just did my footwork and just went to 
all different spots and applied.
    Ms. Norton. Say that again.
    Mr. Brown. I said I did my footwork and just went to every 
spot that they was hiring and applied online and kept calling, 
you know, kept on calling them, kept calling them. Then 1 day 
they said, come on down.
    Ms. Norton. Mr. Brown, you indicated that you were raised 
on foster care; is that the case?
    Mr. Brown. Yes.
    Ms. Norton. So you were not raised by your own mother and 
father?
    Mr. Brown. My father was deceased when I was an infant. My 
mom, she was on drugs, you know, and she was bouncing house to 
house. So yes, I was pretty much raised in foster care.
    Ms. Norton. Who raised you, Mr. Cunningham?
    Mr. Cunningham. My grandmother and my grandfather.
    Ms. Norton. You were fortunate.
    Mr. Cunningham. Yes.
    Ms. Norton. Where did you learn barbering? Was that at 
McKinley?
    Mr. Cunningham. Excuse me?
    Ms. Norton. Did you learn barbering at McKinley? How did 
you get into barbering as a profession?
    Mr. Cunningham. Yes.
    Ms. Norton. How did you get that training? What led you to 
that training?
    Mr. Cunningham. I started out when I was in Youth Center 
One.
    Ms. Norton. Where?
    Mr. Cunningham. At Youth Center One.
    Ms. Norton. I'm sorry?
    Mr. Cunningham. The Youth Center. There used to be a 
correctional facility.
    Ms. Norton. Youth Center. A Youth Center here in the 
District of Columbia?
    Mr. Cunningham. No, it was in Virginia, where all the 
people used to go down to Lorton there.
    Ms. Norton. I see. You learned barbering there?
    Mr. Cunningham. I learned down there, and when I came home 
in 1987 I went to Bladensburg Barber School, and then I did my 
hours there and completed it, and after I got my license.
    Ms. Norton. Mr. Cunningham, was yours marijuana as well?
    Mr. Cunningham. Yes, ma'am.
    Ms. Norton. Well, marijuana is not habit-forming, so how 
did you get access--or at least that is what they told Mr. 
Brown--how did you get access to a drug rehabilitation program?
    Mr. Cunningham. I can just say I could just maybe look at 
it like I haven't got in trouble in 4 years since I was on 
parole, never had a dirty urine. So, that was my first dirty 
urine, and just like once you complete the phase at a time you 
being in there they take you off the urine. So just like 1 day, 
I just wound up smoking some weed, and then they called me in 
to take a spot test. So I had a dirty urine. So I was still 
working, still doing the things that I need to do. I never gave 
my parole officer no reason to send me back or to maybe give me 
a second chance, so that is how I wound up getting into the 
drug program.
    Ms. Norton. Well, I have news for the Parole Commission: 
marijuana, according to potheads I have known, is or can be 
habit-forming. But at least with respect to you, somehow you 
had your sanction at a time when there was an alternative. Mr. 
Brown did not.
    We brought you both here because we are trying to improve 
the system, to do whatever we can to improve--to see whether it 
is rooted in law, whether it is rooted in any kind of sane 
policy, whether anyone takes into account if you have a job, 
which is very difficult for an ex-offender to get in the first 
place, if you have a family--if you will, a kind of cost/
benefit analysis. Dirty urine for the kind of substance that is 
routinely used out here by people who are never incarcerated, 
or loss of a job and perhaps support that others are dependent 
upon.
    Mr. Brown. Yes.
    Ms. Norton. But the only way to know it is to have people 
like yourselves come forward and tell us what it has been like.
    Mr. Chairman, I very much appreciate the opportunity to 
hear and question these witnesses. Thank you.
    Mr. Davis of Illinois. Thank you very much.
    Let me just ask one additional question.
    Was marijuana the only substance that was ever found in 
either one of your urines?
    Mr. Cunningham. Just marijuana.
    Mr. Davis of Illinois. Pardon? Marijuana was the only one?
    Mr. Brown. Yes, and alcohol.
    Mr. Davis of Illinois. Just alcohol and marijuana?
    Mr. Brown. Yes.
    Mr. Cunningham. Yes.
    Mr. Davis of Illinois. Gentlemen, thank you very much. We 
really appreciate your coming and sharing your experiences with 
us.
    If you had anything else to write down and wanted to, or if 
you think of something you would like to have us know, just 
write it down and get it to us and we would be delighted to 
have it.
    Gentlemen, thank you. Thank you very much.
    Mr. Brown. Thank you.
    Mr. Cunningham. Thank you.
    Mr. Davis of Illinois. I will just go ahead and introduce 
our second panel.
    Mr. Paul Quander, director of Court Services and Offender 
Supervision Agency. As director of the Federal agency 
responsible for ex-offender supervision, Mr. Quander is the 
first director of the Court Services and Offender Supervision 
Agency. It is called CSOSA. He has served in this capacity 
since 2002. CSOSA is responsible for supervising adults on 
probation, parole, and supervised release in the District of 
Columbia.
    Mr. Quander, thank you so much. Welcome.
    Chief Isaac Fulwood is the commissioner of the U.S. Parole 
Commission. Commissioner Isaac Fulwood served on the U.S. 
Parole Commission since being confirmed by the U.S. Senate on 
November 20, 2004. Chief Fulwood has distinguished himself as 
an outstanding law enforcement practitioner in the law 
enforcement community. He served 29 years as a member of the 
Metropolitan Police Department and became the District's 25th 
chief of police for the Metropolitan Police Department in 1981.
    Commissioner Fulwood, thank you so much, and welcome.
    Ms. Avis E. Buchanan is the director of Public Defender 
Service for the District of Columbia. Avis Buchanan has served 
as the director of the District's Public Defender Service 
[PDS], for the past 3 years. She holds a juris doctorate and 
has worked as a staff attorney for the Equal Employment 
Opportunity Project of the Washington Lawyers Committee for 
Civil Rights and Urban Affairs.
    Dr. James Austin is president of the JFA Institute, which 
is a nonprofit research agency that works in concert with 
Federal, State, and local government agencies and philanthropic 
foundations to evaluate criminal justice practices and design 
research-based policy solutions. Dr. Austin has over 25 years 
of experience in correctional planning and research, and is the 
former director of the Institute on Crime, Justice, and 
Corrections at George Washington University in Washington, DC. 
Dr. Austin authored the study on the evaluation and 
revalidation of the U.S. Parole Guidelines risk instrument, 
which is used to rate the suitability of parole for D.C.-
sentenced prisoners.
    Thank you all so very much. We are delighted that you are 
here.
    It is the tradition of this committee that all witnesses 
are sworn in, so please stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Davis of Illinois. The record will show that the 
witnesses answered in the affirmative.
    We thank you all for coming. You know that the light means 
that we have 5 minutes of testimony. Your full testimony is in 
the record. If we get down to the yellow light, we are really 
at 1 minute and we would like for you to begin to wrap up. The 
red lights means that you are completed and we would like for 
you to stop so that we can get to the next witness and get to 
the questions.
    Thank you all for joining us. Mr. Quander, we will begin 
with you.

   STATEMENTS OF PAUL QUANDER, DIRECTOR, COURT SERVICES AND 
OFFENDER SUPERVISION AGENCY; CHIEF ISAAC FULWOOD, COMMISSIONER 
  OF THE U.S. PAROLE COMMISSION; AVIS E. BUCHANAN, DIRECTOR, 
PUBLIC DEFENDER SERVICE FOR THE DISTRICT OF COLUMBIA; AND JAMES 
          AUSTIN, PH.D., PRESIDENT, THE JFA INSTITUTE

                   STATEMENT OF PAUL QUANDER

    Mr. Quander. Thank you, Chairman Davis, and good afternoon, 
Chairman Davis and Congresswoman Norton.
    When the Revitalization Act created the Court Services and 
Offender Supervision Agency in 1997, the District of Columbia's 
parole system was under investigation by the city's Inspector 
General. In 1995, a parolee murdered a young woman named 
Bettina Pruckmayr. Her case continues to underscore the reality 
that public safety is at the heart of community supervision.
    Citizens expect that we will closely monitor the offenders 
who reside among them, and it is our highest duty to remain 
deserving of that trust.
    In his report, D.C. Inspector General E. Barrett Prettyman 
identified the conditions that contributed to inadequate parole 
supervision: an average caseload of 179 offenders per officer 
in 1994 and 1995, inconsistent application of drug testing and 
contact standards, and inadequate procedures to notify the 
releasing authority--then it was the D.C. Board of Parole--of 
violations or arrests.
    In its first year, CSOSA focused on addressing these 
conditions. The Agency received substantial resources to lower 
supervision caseloads. The general supervision caseload is now 
below the nationally recommended maximum of 50 offenders per 
officer, and specialized caseloads are significantly lower.
    We also put in place stringent contact standards and drug 
testing requirements. The average number of offenders tested 
each month for drug abuse has risen from 2,300 in 1999 to over 
8,500 in fiscal year 2007. Since fiscal year 2003, the 
percentage of the supervised population who test positive at 
least once during the fiscal year has decreased by 10 percent 
to its current level of 46 percent.
    CSOSA also recognized the need to maintain an active, 
visible community presence to improve public confidence in 
collaboration with our law enforcement partners. To that end, 
we have established six field offices, locating the majority of 
our officers in neighborhoods where offenders live and work. We 
conduct over 8,000 joint field visits or accountability tours 
with the Metropolitan Police Department every year.
    The message that police and community supervision officers 
communicate and collaborate to enforce accountability is 
reinforced daily on the streets of Washington. This message is 
further reinforced through extensive data sharing by way of 
both CSOSA's case management system and the Criminal Justice 
Coordinating Council's justice system.
    CSOSA works closely with the U.S. Parole Commission to 
ensure that parole and supervised releasees' conditions are as 
effective as possible. We create special conditions in 
coordination with the U.S. Parole Commission so that offenders 
participate in programs that will further their treatment and 
their re-entry into the District of Columbia.
    Such conditions have been particularly important in 
implementing our newest resource, the Re-entry and Sanction 
Center. This is a 28-day residential program that provides 
intensive assessment and treatment readiness programming to 
high-risk offenders at the critical point of transition into 
the community.
    CSOSA recognized early that the District's public treatment 
capacity could not provide the level of services needed for 
this population. To supplement that capacity, we asked and 
requested of this body and received resources to develop 
additional contract treatment capacity. Last year, we made over 
2,400 treatment placements for substance abuse treatment.
    The public has the right to expect that community 
supervision will detect and interrupt offender's non-compliant 
behavior before it escalates to a new crime. To that end, CSOSA 
consistently monitors the risk level of offenders through 
initial and periodic assessments. We will address noncompliance 
through a system of sanctions that are imposed quickly and 
uniformly. CSOSA's sanction matrix defines the appropriate 
response to each level of infraction based on the offender's 
supervision level and the nature of the violation. Sanctions 
options include written reprimands, attendance at daily 
sanctions groups, increased reporting, increased drug testing, 
community service, halfway back, and the Re-entry and Sanctions 
Center.
    In fiscal year 2007, we sanctioned over 96 percent of the 
violations reported each month. We are always seeking to expand 
the range of sanctions available to community supervision 
officers. Since fiscal year 2004, we have placed more than 
2,000 high-risk offenders on GPS monitoring.
    In 2006, we worked with the U.S. Parole Commission to 
implement reprimand sanctions hearings. Since the program 
began, 84 hearings have been held, and our early data indicate 
that these hearings improve compliance. Our daily reporting and 
violence reduction program also targets noncompliance among 
high-risk offenders with histories of violence.
    Though sanctions are a critical component of community 
supervision, they cannot always restore compliance. If 
noncompliance escalates to the point of being a public safety 
risk, a request for revocation must be the next step.
    In fiscal year 2006, CSOs, or community supervision 
officers, filed over 3,400 alleged violation reports with the 
U.S. Parole Commission. Three-quarters of these cases were 
supervised at the maximum or intensive supervision level at the 
time of the AVR, which is the highest levels of supervision. Of 
the AVRs, 46 percent involved a new arrest, and 54 percent were 
for non-compliant technical violations such as substance abuse, 
failure to report for their office visits or drug testing, 
noncompliance with program requirements, or other violations of 
written requirements issued by the releasing authority.
    The average alleged violation report documented six 
violations. Three-quarters of all violations were drug related. 
Ultimately, less than a third of the alleged violation reports 
resulted in the U.S. Parole Commission issuing a warrant.
    Community supervision will not constitute more than a brief 
hiatus between episodes of incarceration unless mechanisms are 
in place to address the factors that drive crime and 
noncompliance. In addition to substance abuse, these factors 
include unstable housing, unemployment, lack of education, and 
mental health issues.
    Offenders who cannot earn a living wage, find a place to 
live, improve their skills, or get treatment for their 
illnesses are more likely to fall out of compliance. we work 
diligently with our public and nonprofit and faith-based 
partners to ensure that offenders have access to as many 
resources as possible. Notwithstanding these efforts, more 
opportunities are needed, particularly in the areas of 
transitional housing, vocational training, and job placement.
    I thank you for the opportunity to appear before you today 
and will be happy to answer any and all questions that you may 
have. Thank you.
    [The prepared statement of Mr. Quander follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Davis of Illinois. Thank you very much, Mr. Quander.
    We will now proceed to Chief Fulwood.

                STATEMENT OF CHIEF ISAAC FULWOOD

    Mr. Fulwood. Good afternoon, Mr. Chairman. And to my 
Congresswoman Norton, thank you for the opportunity to 
participate in this timely discussion 10 years after the 
anniversary of the National Capital Revitalization and Self-
Government Act.
    As you know, when the act was implemented it had two 
purposes in mind: to revitalize the economy of the District of 
Columbia and to improve the prospects for home rule. The major 
changes for the District of Columbia were the closing of the 
Lorton Complex, the transferring to the Federal Bureau of 
Prisons the responsibility for all D.C. felons sentenced to 
confinement, the creation of the Court Service and Offender 
Supervision Agency, transferring funding of the D.C. court 
system, rewriting laws for D.C. which eliminated parole and 
required a fixed term of confinement, and abolishing of the 
D.C. Parole Board and transferring authority to the U.S. Parole 
Commission.
    The question is: Did the Revitalization Act help the city? 
In some respects it is a mixed blessing. Today the city is in 
better shape financially, with economic growth, and a safe 
place; however, for the people who find themselves incarcerated 
in the Board of Prisons, their lives are compounded by being a 
long way from family and ability to maintain contact with loved 
ones. Equally, the level of programming within the Bureau 
prisons to prepare the offender to successfully return to 
society is oftentimes inadequate.
    The challenge that the criminal justice system faced with 
an urban population of offenders due to the issue of drug 
abuse, crimes of violence, and pressuring the community to 
address all the maintenance problems taxes the limits of its 
resources.
    In addition, this is a population that is 
disproportionately minority. This raises the issue of best 
approaches to supervision. What are the best practices for 
rehabilitation and building social support systems and 
strengthening family connections?
    The D.C. offenders is a group that is up close impacting 
our lives every day, and reducing recidivism rate is important 
to the city as it focuses on continuing to make the city a 
safer place.
    To address these issues, there is a need to improve 
programming in the institution: GED, skill training such as 
UNICORE, drug abuse training, family management. Most studies 
in recent times that speak on how to lower the recidivism rate 
speak on the need to improve programming in the institution so 
that the offender population is better equipped to handle the 
pressures related to social control.
    The responsibility of the U.S. Parole Commission is to work 
with their criminal justice partners in managing that public's 
safety, setting sanctions of relief, and estimating risks. We 
have jurisdiction over the following type of cases: all Federal 
offenders who commit an offense before November 1, 1987; all 
D.C. Code offenders; the Uniform Code of Military Justice 
offenders who are confined in the Board of Prisons institution; 
and transfer treaty cases, U.S. citizens convicted in foreign 
countries who would like to serve their time here; and State 
probationers and parolees in the Federal witness protection 
program.
    Briefly, the goal of supervision is public safety, taking 
steps and actions to prevent offenders from intimidating the 
community; reducing recidivism, keeping the person in the 
community through coordination with our various partners; and 
socialization, assisting the offender with transitioning back 
to the community, and understanding his or her responsibility 
for appropriate behavior.
    The issue of setting sanctions for the U.S. Parole 
Commission is identifying risk factors, or those issues that 
put the community at risk. Second, the use of technology, GPS, 
polygraphs, in high levels of supervision. Critical to the 
success of completing supervision is building support in the 
community and connecting to families.
    So to the issue of re-entry, the problem that many 
offenders face when they come back to the community, no 
transitional housing. The impact is even greater now because of 
the changing demographics in the city of Washington, DC. It is 
very difficult to get housing. Communities have become very 
expensive.
    Drug treatment, job training, and socialization, connection 
to family, mental health issues, developing partnerships to 
assist in re-7entry--the challenge that is faced by an urban 
population is managing the offenders who suffer from drug 
abuse, unemployment, and poor social skills. CSOSA and the U.S. 
Parole Commission have developed an approach, a pilot called 
reprimand sanctions. Reprimand sanction is built on the concept 
of the District drug courts. Instead of judges, offenders stand 
before a Parole Commission. Briefly, let me discuss this 
program.
    The mission of reprimand sanction hearings serve as a 
graduated sanction, short of revocation, that permits the 
Commission to address non-compliant behavior. The goal is to 
increase safety in the community and for the offender to 
advantage him or herself of program supports which will reduce 
the rate of recidivism. Additionally, it will restore a sense 
of respect to the offender.
    So the issue is approval, accountability, reduced 
recidivism, reconnect offender to supervision, identify support 
programs for offenders, and develop working partnerships with 
CSOSA, with the Public Defender Service, and the U.S. Parole 
Commission.
    In summary, let me first commend the Public Defender 
Service and CSOSA for their work toward improving the quality 
of life for offenders, which in the end makes us all a safer 
community. Today there are still barriers to re-entry: a lack 
of community resources, limited housing, substance abuse, dual 
diagnosis programs, financial support, coordination, and the 
need for high levels of supervision for some offenders.
    The act has produced a greater coordination of service for 
offenders in the D.C. community. This would include public, 
private, and faith-based organizations. There has also been a 
more concerted effort to better identify the risk and need each 
offender poses so that the strategy can be developed to address 
those issues.
    Finally, the act has created a more thoughtful, coordinated 
effort among the various partners in the criminal justice 
system within the District of Columbia.
    Thank you for this opportunity. I would be more than happy 
to answer any questions that you have.
    [The prepared statement of Mr. Fulwood follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Davis of Illinois. Thank you very much, Chief Fulwood.
    Now we will go to Attorney Buchanan.

                 STATEMENT OF AVIS E. BUCHANAN

    Ms. Buchanan. Good afternoon, Mr. Chairman and 
Congresswoman Norton. I am Avis Buchanan, director of the D.C. 
Public Defender Service. Thank you for this invitation to 
testify before the subcommittee today on parole, supervised 
release, and revocation of D.C. Code offenders.
    PDS is a federally funded, independent, local public 
defender office. PDS has represented over 90 percent of the 
thousands of D.C. Code offenders facing parole or supervised 
release revocation by the U.S. Parole Commission. Since the 
Revitalization Act of 1997 abolished the D.C. Board of Parole 
and transferred authority over D.C. parolees and supervisees to 
the Commission, PDS has seen an increase in the number of 
supervision revocations, a profound increase in the number of 
revocations based on minor violations, an increase in the 
length of time offenders are serving for violations, and an 
increasing lack of transparency in the revocation process.
    In 2006, at least 2,000 revocation hearings were held for 
D.C. parolees, out of a total parole and supervised release 
population of approximately 5,400. Most hearings resulted in 
parole being revoked and a prison sentence of at least 1 year 
being imposed.
    The D.C. Code offender faces several challenges in the 
revocation process. In the District, the majority of persons 
the Commission finds have violated their parole and sends back 
to prison are returned for technical violations only, such as 
failure to maintain employment. In fiscal year 2007, 20 percent 
of D.C. Code offenders on parole or supervised release had 
their parole or supervised release revoked because of technical 
violations only. Compared with the Commission, judges are much 
more amenable to alternatives to incarceration and more likely 
to accept the recommendation of the supervision officer to 
continue the person under supervision with additional 
conditions, as the Commission does not.
    We therefore propose that authority for revocation 
decisions be transferred from the Commission to the Superior 
Court judges who imposed the original sentence. The 
Commission's decades-old salient factor scoring system used to 
determine a parolee's likelihood of recidivism and the penalty 
to be imposed, one, skews toward re-incarceration and then 
toward lengthy prison sentences; two, as found by a recently 
published report commissioned by the District's Criminal 
Justice Coordinating Council, in cooperation with the 
Commission, entitled Evaluation and Revalidation of the U.S. 
Parole Commission Guidelines Risk Instrument does not account 
for factors and behaviors that have shown to affect and/or 
predict recidivism; and, three, as the system was designed for 
use in initial parole grant matters, it fails to adjust for 
some of the obvious differences between inmates seeking parole 
and parolees facing revocation.
    While the Commission accepted the report's recommendations 
that the Commission review its salient factors score system, 
allow for much shorter periods of incarceration, and consider 
not re-incarcerating low-risk parolees for low-severity 
violations, the Commission failed to act quickly to convert to 
the new system.
    Another issue is the Commission's habit of incarcerating 
people pending parole revocation hearings. If probable cause is 
established for an alleged violation, the Commission can detain 
the parolee pending his final revocation hearing approximately 
2 months later. The Commission almost never exercises its 
discretion to release a person with continued supervision by 
CSOSA pending the final revocation hearing. Thus, any employed 
parolee will almost definitely lose his job, even if the 
violation allegations are unfounded. Of course, failure to 
maintain employment is a technical violation that can and does 
lead to re-incarceration.
    After the revocation hearing, the examiner announces the 
recommendation. The Commissioner makes the final decision 
without explaining any reasons for reversing the hearing 
examiner. The Commissioners almost never listen to the audio 
recordings made of the hearings, and do not indicate which 
Commissioner made the final decision.
    The basis for any appeal to the Commission's National 
Appeals Board is the examiner's one-page summary of the 
hearing, which may not adequately reflect the proceedings and 
which is not automatically provided to the parolee, who must 
sometimes litigate the appeal without the summary.
    The National Appeals Board consists of three of the five 
Commissioners. Board decisions are issued anonymously. Not only 
is there no way of knowing whether, as the rules require, the 
author of the appellate decision is different from the 
Commissioner who made the final decision, the Commission bars 
an objection to the Board decision that the deciding 
Commissioner was a voting member on the appeal. Not 
surprisingly, the Board never reversed their own decisions in 
fiscal years 2004 and 2005, and did so in only 2 percent of 
appeal cases in fiscal year 2006.
    While there is much to criticize about the structure and 
work of the Commission, some of its work is effective and 
appreciated, such as reducing resolution time and the use of 
the reprimand sanctions hearings. We refer to those areas in 
our written testimony.
    I appreciate the opportunity to present this testimony to 
the subcommittee, and I would be pleased to work with the 
Members in their ongoing consideration of these issues.
    Thank you.
    [The prepared statement of Ms. Buchanan follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Norton [presiding]. Thank you very much, Ms. Buchanan. 
The chairman has had to leave for a few minutes.
    Dr. Austin.

                   STATEMENT OF JAMES AUSTIN

    Mr. Austin. Thank you, Congresswoman Norton. I am going to 
give my testimony on actually the report that Ms. Buchanan just 
referenced, which was the evaluation of the U.S. Parole 
Commission's salient factors score.
    About a year ago I was asked by the Parole Commission to 
reevaluate the extent to which the factors and the risk 
instrument that they were using to determine release of 
prisoners who had been sentenced under the old, indeterminate 
sentencing law was accurate in terms of assessing the true risk 
of the prisoners, and then also look at the revocation process 
and the guidelines that governed that.
    So what was completed was an analysis of D.C. inmates who 
had been sentenced under the old, indeterminate sentencing 
laws. As you recall, under the old law, which was before the 
Revitalization Act, that is the way it was. You would receive a 
minimum and a maximum sentence. As the two gentlemen mentioned 
to us in the previous panel, one of them had a 5 to 15 year 
sentence. He would have to do those 5 years, and then it is up 
to the Parole Commission to decide when he would be released. 
Under the old D.C. Parole Board, the presumption was you would 
be released at the minimum. Once that authority transferred to 
the U.S. Parole Commission, a different philosophy was adopted, 
which is there is no presumption of being released at the 
minimum. You have to go through this risk process and determine 
whether or not you can be released at what point of your 
sentence.
    So I am going to summarize some of the major findings that 
I think are very important in terms of understanding the risks 
these people pose and the reasons why they are recidivating and 
some options that are now on the table that we hope will fix 
the situation in the next, I would say, 6 to 8 months.
    If you look at the prisoners released in 2002, there are 
two things that are very striking about them. One is that their 
sentences, compared to other inmates throughout the country, 
including Illinois, they have much longer sentences and they 
serve a much longer time incarcerated before they are released. 
To be very specific, the national average of time served across 
the country now is about 30 months; D.C. inmates, under the old 
law, are serving over 44 months. It is about over a year longer 
on average.
    This difference in the time served for the D.C. inmates is 
not explained by the type of crime they are committing. They 
are serving exactly the same types of crimes as other States. 
In fact, if you look at the length of stay by each crime type--
violent crime, drug crimes, property crimes--you will see that 
D.C. inmates consistently serve a longer period of time than in 
other States. That is because of the presumption that you do 
not get out at your minimum release date for the old sentence 
laws. You have to serve more time before you can get out.
    If you look at the recidivism rates, which is interesting, 
I think, you will find that about two-thirds of these prisoners 
got re-arrested at least one time within a 3-year period after 
being released, 52 percent were re-convicted, and 37 percent 
were returned to custody. These rates are exactly identical to 
other States, so there is no difference really in the risk that 
they are posing.
    The other thing that is interesting, which is very similar 
to other States, if you look at the number of arrests that were 
lodged against them before they went to prison and then after 
they get released, you will see a dramatic drop in the number 
of arrests. A 60-some percent drop in the number of arrests are 
occurring. So, although they are getting arrested, they are 
getting arrested on a much less frequent basis and for very 
less-serious crimes. Of the crimes that they are being returned 
to prison for, 83 percent are either property crimes, drug 
crimes, or parole and probation technical violations. Very few 
are coming back for a violent crime.
    So they are not getting worse, they are getting better, so 
to speak, and part of the reason they are getting better is 
what we call the maturation effect. They are burning out, 
slowing down. It is a national statistic that is repeated over 
and over again. People that are committing most of the crime in 
the District of Columbia are not people that are being released 
from prison. They represent a very small percent of the crime 
problem. The crime problem is the young generation coming up. 
That is the group we should be focusing on.
    So there is a number of people coming out of prison that 
pose little risk to public safety. Their problems tend to be in 
the area of the violation and also property and drug use.
    Another important finding that we found is that the length 
of time that they serve is completely unrelated to recidivism 
rates, which means if you do 12 months, 18 months, 24 months, 
44 months, you get exactly the same bang for that buck from 
time served. What that tells you, the issue for us in the 
future is what is the appropriate amount of time to serve. It 
becomes extremely important in the District because you are 
serving such a long period of time unnecessarily. You are not 
getting anything for that additional 14 months that people are 
having to serve before they get out.
    The salient factors score, as she alluded to, was imported 
from the Board of Prisons. It had been tested on a very 
different population. It is not the D.C. population, doesn't 
look like the D.C. inmates, and therefore, quite 
understandably, it is not a good predictor of recidivism. So 
the instrument that the Commission is now using is not 
predictive, even though it is being used for such a purpose, so 
it needs to be fixed, and rather quickly so we can get an 
instrument that does work.
    Now, in our analysis we came up with a new prototype system 
which includes things that we know work from other 
jurisdictions, but, more importantly, takes into account what 
we call dynamic factors, which are the things that prisoners 
can change on. So completing and participating in programs that 
we know reduce recidivism rates, they would get credit for that 
on the risk instrument. Being better prepared to be released in 
the community, we found in our research on the D.C. inmates, 
lowered the recidivism rate. So there are some things that can 
be incorporated in the risk instrument that would do a far 
better job of reducing recidivism.
    One other thing I just want to mention on the study which 
we also found which is consistent with the previous speaker's 
testimony is that the period of time that they are serving on a 
violation is quite long, much longer than what you see in other 
jurisdictions. It has gotten to the point now that 
theoretically the time that you can serve on a technical 
violation can exceed your sentence. It can exceed your sentence 
for a technical violation. So I think the first speaker on the 
first panel was talking about he can't get off of parole. He 
can't. It is being added and added, and he will stay on parole 
for a long, long time until he becomes extremely free of any 
violations, which is very hard to do.
    So, based on these findings, what we suggested is let's 
change the guidelines, let's get a new risk instrument, let's 
get it designed, and let's get going with a new system that is 
going to work for the District. As of this point, we have now 
formed a partnership with the Board of Prisons, the Parole 
Commission, the U.S. Department of Justice, the Public 
Defenders Office, the U.S. Attorney, and CSOSA to come up with 
this new instrument, this new process. We are in the midst now 
of collecting the data. We hope to have the analysis done in 
the next 3 to 4 months, and we should be able to have a new 
system ready to go some time this summer or in the fall.
    That is where we are headed. It is going to be a positive 
change. It is going to produce much better results, I think 
lower recidivism rates. It should reduce the amount of time 
that people are serving now, both on their current sentences, 
but also on the violations.
    I thank you for your time, and I would be glad to answer 
any questions you might have about this study.
    [The prepared statement of Mr. Austin follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Davis of Illinois [presiding]. Well, thank you very 
much. Thank you, Delegate Norton.
    Let me ask you, Mr. Quander, what would you consider to be 
the greatest difficulty that your agency faces trying to 
coordinate as many of the services as you can that exist for 
the ex-offender population?
    Mr. Quander. Our greatest difficulty is that there are so 
many needs that offenders coming back to the community have. As 
many of the witnesses have testified today, it centers around 
areas of treatment, housing, education, employability. So when 
you try to coordinate, it is not just coordinating with one 
group, but there are various entities that are out there. That 
is why our strategy has been to try to coordinate not only with 
government offices but also the faith-based entities and 
organizations that are there that can provide that assistance. 
It is a multi-layered approach that we have to take in order to 
provide the necessary services. It is not just one thing that 
will be impactful. It is all--and they are all intertwined. So 
it is just the breadth of the problem that requires a lot of 
coordination, a lot of dedication, and that is probably the 
largest problem that we face.
    Mr. Davis of Illinois. Knowing that it is, in fact, very 
difficult to pinpoint and to find all of these services, say, 
in one location or one place, in your experiences, is there one 
overriding need that must be met if many of these individuals 
are to experience success?
    Mr. Quander. That, again, is difficult, because if you, for 
example, take substance abuse--and we provide substance abuse 
treatment, and it actually takes--if a person doesn't have a 
place to live, then it is only a short matter of time before he 
may revert back. If a person doesn't have a means to sustain 
his employment, then that individual may seek other illegal 
means to sustain his ability to live and to provide. So it is 
that complicated process that we are working on, and we have 
made a lot of improvement. But it takes a lot of coordination.
    We do need additional resources in the area of substance 
abuse to cover all of the individuals who need that 
intervention, but as far as housing, employment, education, 
those are things that we have to work just as hard on to make 
sure that there is a sustained improvement as far as service 
delivery to the population. That I believe will give us the 
best result in the long run.
    Mr. Davis of Illinois. How helpful or accommodating are you 
finding that families and other people who are not necessarily 
part of a program are being in assisting individuals? For 
example, we have a system where, if a person says, ``I have a 
place to live,'' you may be able to get out on parole or you 
may be able to get out earlier, but, of course, the individuals 
will have some place they will say they can go. But, of course, 
they have already been told by whomever's address that they are 
using that they really can't stay here--``I am going to let you 
put my address down, but you can't really stay here.'' So what 
are you finding in terms of the willingness of families to 
provide individuals with this most basic thing of a place to 
live?
    Mr. Quander. It comes as no surprise that, when a crime is 
committed, not only is that individual involved in the criminal 
justice system, but his or her family is involved in it. And, 
oftentimes families have been standing beside their loved ones 
for years, so it varies. Many families are tired, but they are 
willing, in many instances, to continue working with their 
loved ones if they know that they have someone that is going to 
help them, if there is going to be a community supervision 
officer, if there is going to be a mentor from a church, if 
there is going to be someone else to help them in that process 
so that they don't have to take the burden on themselves. That 
has been part of our philosophy.
    That is why we have reached out to the faith-based 
organizations early on, because we knew that they were in the 
business of helping individuals and had already been doing a 
lot of this. So we wanted to partner with them so that when 
that individual comes home, it is not just a family member that 
is there, but there is a mentor.
    One of the other things that we thought was important was 
to not wait for that process to begin, until that individual 
actually hits the streets of the District of Columbia. We used 
video equipment so that we can start matching offenders with 
mentors and their family members while they are still 
incarcerated at the Rivers facility, and the warden at Rivers 
was very cooperative and supportive of our efforts. So we 
started to build that bridge even before the individual left 
that institution and returned to the District.
    I think when a family member sees that there is support, 
that the individual can make it, that the individual wants to 
make it, and that there is support there, I think that helps 
the family to embrace that individual and to keep that 
individual front and center in support of his efforts or her 
efforts to regain the spirit of community.
    Mr. Davis of Illinois. Chief Fulwood, let me ask you, what 
external conditions are helpful when it is time for your 
Commission to make a decision relative to parole? Are there 
external conditions that will help facilitate your decision in 
terms of determining that this is more likely to be a 
successful release?
    Mr. Fulwood. The first thing is programming in the 
institution, itself, where they provide for drug treatment. 
When we had a teleconference with the Rivers people, what we 
found was that they didn't have really drug treatment programs. 
They now will have them in June.
    If the person is a chronic substance abuser, they need drug 
treatment so that when they come out, they can go into further 
programs that are dual diagnosis in nature, that will help deal 
with mental illness problems in addition to drugs. If they are 
bipolar, as an example, you have to deal with that as well as 
the drug treatment.
    The opportunity to reconnect to family, I think, is at the 
core of all of it. If you look at the Urban League's most 
recent report, they talk about 50 percent of the households in 
Black neighborhoods are headed by women. There are no men, so 
there are no role models. And so if we can reconnect people to 
families, they have a much better chance.
    There are people I know who are successful in this town, 
who are successful because they had a family. They fell, they 
were using drugs, but they had a family to pick them up. So we 
need the re-connection to family, and we need solid 
neighborhoods and communities to help support.
    The idea of the faith-based communities being participants 
is a very good thing, because we get mentors out of it. When we 
look at things like that, that makes a difference. So when we 
do reprimand sanction hearings, the questions that I ask are: 
where is your family? Do you have children? Do you have a 
mentor? Have you been involved in a drug treatment program? And 
I try to look at stable housing, stable employment 
opportunities. We haven't sent anybody back to jail who had a 
job or stable housing, because we believe that is an important 
part of trying to make better decisions about how you handle 
people.
    If you will permit me to say one thing, when Jim Austin 
talked about D.C. population serving longer prison time, they 
were getting sentenced for longer prison times, he should have 
noted, it is by the court, not by CSOSA or the U.S. Parole 
Commission. This is the court sentencing, and the courts have 
now backed away from the sentences. The times are down on 
substance abuse cases, because we realize that these are very 
difficult issues to deal with, very hard for us to deal with it 
because there are not enough treatment spots. CSOSA would do a 
much better job if they had more treatment slots in good 
programs. Every program is not a good program.
    Mr. Davis of Illinois. It is my understanding that the 
authority of the Parole Commission is set to expire soon. Do 
you have any thoughts about reconstituting it or how it should 
be reconstituted or should it be reconstituted?
    Mr. Fulwood. The thoughts of one Commissioner, not speaking 
for the Commission or the Justice Department--I think it ought 
to be reconstituted. It is due to go out of business in 
November. I think we ought not to be operating under a system 
where we are uncertain as to whether the Parole Commission is 
going to exist so that we can move forward with things that we 
need to move forward with. We authorized the study of the 
Parole Commission, because we weren't satisfied with the way 
things were going. With the salient factor score, we thought it 
was not appropriate for the Federal system that we had 
developed to hold this D.C. population; that we needed to do 
something entirely different. So, we authorized the study. We 
now had the first meeting where we are looking at risk factors 
and other kinds of issues.
    None of this is, to me, rocket science about human 
behavior. Any of us who understands and who has relatives who 
have fallen prey to this understand and appreciate that it is 
very difficult to sort out what are the risk factors.
    When we sit here--just to be blunt, when we sit here, and 
we start talking about nonviolent offenders, that sounds very, 
very nice. But, if you live in a poor neighborhood, you live in 
Potomac Gardens, and people are selling drugs out in front of 
your house, and your 3-year-old daughter has to go outside, you 
don't want to hear that. You want to call the police. We ought 
to be honest about it and be blunt about it, because these poor 
neighborhoods are the neighborhoods who suffer 
disproportionately. So we have to figure out how to build 
crime-resistant neighborhoods so that we are not locking people 
up and sending them back to jail for it.
    I mean, when you send somebody back to jail for 12 months 
for dirty urine, it is not one dirty urine, so we ought to be 
frank about that, too. It is not one dirty urine. CSOSA has had 
a series of graduated sanctions before it gets to where they 
ask the Parole Commission to issue a warrant for this person's 
arrest.
    Mr. Davis of Illinois. Director Buchanan, your agency 
represents individuals before the Parole Commission who are up 
for revocation. Do your experiences suggest that there are some 
changes in procedures or changes in requirements or criteria 
that might be used as they make decisions?
    Ms. Buchanan. Yes, sir. We agree with Chief Fulwood and 
with Dr. Austin that the salient factors score that the 
Commission uses is out of date and essentially inept for this 
population; that there needs to be a tighter correlation 
between known risk factor predictors or validated factors and 
predictors and the grid and the sanctions available for parole 
and supervised release revocation. That is one area--to update 
the grid, to update the factors, to institute those changes, 
and to provide training to the Commissioners in their 
application.
    Also, we have a slightly different opinion than Chief 
Fulwood. We would prefer to see the parole revocation and 
supervised release revocation matters go back to the original 
judges who are familiar with the folk whom they sentenced and 
are familiar with the backgrounds, and we believe it would be 
more appropriate for them to resolve these issues than for the 
Commission to do so. The Commission has a Federal mandate, 
Federal character, and has very few ties to the District of 
Columbia outside of Chief Fulwood.
    Those are just two of the main issues. We also believe that 
the Commission should be more flexible in deciding the person's 
release status upon the initial probable cause hearing. There 
are other factors besides drug use and the graduated sanctions. 
There is the reintegration into the community. There is the 
person's employment status to consider, and these detentions 
are very disruptive to the parolee's progress in reintegration 
into the community, which ultimately is going to have to 
happen.
    Mr. Davis of Illinois. Thank you.
    Dr. Austin, let me just ask you one question before I go to 
Ms. Norton. It is my opinion that part of the problem with all 
of this is that there are so many citizens who just haven't 
come to grips with their own feelings about crime, punishment, 
what to do with it, what to do about it. Many of the programs 
and program activities that people talk about, individuals 
believe in them. But they take what I call the ``NIMBY 
attitude'' about them, and that is Not In My Back Yard. ``It is 
all right to have a halfway house, but put it in Baltimore or 
take it over to Virginia or somewhere. Don't put it in the 
neighborhood where I live.''
    How do we convince the general public, not just law 
enforcement personnel, not just professionals, not just judges 
and juries? How do we convince the general public that what we 
are often talking about actually makes sense and is in their 
best interest, as well as in the best interest of saving money, 
doing whatever else we say that it will do?
    Mr. Austin. I would urge that we give them a better, 
accurate portrayal what the source of the crime problem is. I 
live in the District. I have lived in the District now for 
about 15 years up on Capitol Hill. Since I have been here, I 
have been the victim of a car theft and three break-ins into my 
house. Prior to that, I lived in Chicago and got stuck up a 
couple times delivering milk on the south side of Chicago. So I 
know what being a victim is.
    Over that 35-year period it is the same person. It is a 
young male, probably about age 16 to 21. That is your target 
group. If you have a society or community where young males 
have nothing to do, they don't have any meaningful employment 
or opportunities, they are going to find something to do and 
they are going to come after you.
    So the public needs to understand that people coming out of 
the prison system is the least of their worries. If you look at 
any prison system where we do these population forecasts, about 
half of the prisoners that are going to be in the Board of 
Prisons 5, 8 years from now are now teenagers. And they are 
living amongst us, so that is the public safety issue.
    You can find communities that are very safe. You can find 
cities--the District of Columbia, by the way, is extremely safe 
in probably 80 percent of it. There is 20 percent that is very 
dangerous. It doesn't take a rocket scientist to find out what 
is safe about those communities.
    So the public needs to understand, and it is through, I 
hope, people like yourself, Chairman Davis, who can articulate 
to them that the criminal justice system is not the way to make 
places safer. It is other things about our society that makes 
us safer.
    The reason that we are not criminals is because we got 
educated, we were raised properly, and we had good parents. We 
have something to lose if we get involved in criminal activity.
    That is the trick: flipping that whole thought process that 
the way to make places safer is to have a big criminal justice 
system. That is not the way. That is just simply mopping up 
after the damage has been done.
    Mr. Davis of Illinois. Thank you very much.
    Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman.
    I would like to understand this longer sentences issue. I 
am looking at Ms. Buchanan's testimony first, because you 
indicate--and I am looking on page three--that when they 
abolished the D.C. Board of Parole--that is the Parole Board--
these distinctions may be important to trying to understand 
what is happening here. Parole, we don't have parole, isn't 
that right, in the Federal system?
    Ms. Buchanan. There is no parole any more in the Federal 
system. That is correct.
    Ms. Norton. In fact, there is no probation either, except 
the kind of supervised release that these D.C. residents and 
the ones before a certain date in the Federal system?
    Mr. Austin. Just a clarification. There is no discretionary 
release to parole or parole-type supervision. Everyone still 
coming out of prison goes to a parole-type supervision 
category. What has changed is truth in sentencing. You get a 
sentence and you do a certain percent of that sentence. There 
is no release decision by the Parole Commission except for the 
old cases, which are getting smaller and smaller.
    Ms. Norton. So the presumption you are talking about is the 
presumption that you will serve a certain amount of time?
    Mr. Austin. Right.
    Ms. Buchanan. Yes.
    Ms. Norton. What I don't understand is, Ms. Buchanan says, 
since the abolition of the D.C. Parole Board, since this last 
change, PDS has seen an increase in the number of supervision 
revocations, with a particularly profound increase in the 
number of revocations based on minor violations. Well, when it 
was D.C. Parole Board, rather than the U.S. Parole Commission--
--
    Ms. Buchanan. Correct.
    Ms. Norton [continuing]. Was there less supervision? I 
mean, you don't indicate why this change would have resulted in 
more revocations based on minor violations.
    Ms. Buchanan. Part of it has to do with the salient factor 
score system. The D.C. Parole Board did not use that instrument 
in order to make parole decisions or parole revocation 
decisions, so----
    Ms. Norton. So what did they use?
    Ms. Buchanan. They used their own discretion. It has been 
so long, I'm actually not sure exactly what they used.
    Ms. Norton. It just sounds like the sentencing guidelines. 
Somebody is trying to get some kind of objective system.
    Ms. Buchanan. Well, the sentencing guidelines did not 
substantially increase the sentences that----
    Ms. Norton. No, I'm talking about the old Federal 
sentencing guidelines.
    Ms. Buchanan. OK.
    Ms. Norton. The ones that are so controversial by the 
numbers and so forth. Longer sentences--are you including the 
parole time? Are you talking about sentences that have been 
authorized by the D.C. Council, Dr. Austin? I'm not sure I 
understand.
    Mr. Austin. No.
    Ms. Norton [continuing]. Where do the longer sentences come 
from?
    Mr. Austin. The study that I did was a study of people that 
had been sentenced under the old D.C. sentencing law, which was 
indeterminate. So you got a minimum sentence, and you got a 
very long maximum sentence.
    The new sentencing structure, actually, as Mr. Fulwood has 
noted, is making some very positive changes. They have lowered 
significantly now the sentence length.
    So we don't know. I don't have a good read right now on how 
much time the prisoners are serving under the new sentencing 
law.
    Ms. Norton. Now, the old sentencing laws were longer for 
what reason?
    Mr. Austin. Well, they gave a range, so, just like the 
gentleman said, he had a 5 to 10-year sentence, so he could 
have done anywhere from 5 to 10 years. So you don't have a 
fixed sentence, which you get now.
    Ms. Norton. So a fixed sentence is better?
    Mr. Austin. It depends. It depends how you set it. Now, for 
example, in your State in Illinois, Illinois has determinate 
sentencing. Illinois is famous for having some of the shortest 
prison terms in the country right now. On average, prisoners 
serve about 12 to 14 months in the State of Illinois. You go to 
the State of Michigan, just north, they serve an average of 4 
years under determinate sentencing. So it is how you set it. It 
is all math game.
    The issue is proportionality of the time served to the 
crime that the person has committed. We know scientifically it 
doesn't make any difference how much time you serve on 
recidivism rates.
    Ms. Norton. Well, you say the sentencing done today is more 
in line with what might be expected----
    Mr. Austin. Yes.
    Ms. Norton [continuing]. As opposed to those who are 
serving sentences under the old system. What proportion would 
you imagine those would be? And is there anything that can be 
done about them?
    Mr. Austin. Well, probably--and Mr. Fulwood would know--I 
would say over the next 2 to 3 years just about all of them 
will have been reviewed by the Board for release.
    Ms. Norton. Say that again.
    Mr. Austin. Over the next 2 or 3 years, just about all of 
the old sentenced people will have had an opportunity----
    Ms. Norton. So that is passing?
    Mr. Austin. That is passing through.
    Ms. Norton. OK. Now, Chief Fulwood said that, as a matter 
of fact, graduated sanctions are used before they ever get to 
parole revocation, but why then are so many of them technical? 
In fact, the greater number, 54 percent or something, are 
technical violations. What does that mean?
    Mr. Quander. What that means is that the releasing 
authority, the U.S. Parole Commission, will say----
    Ms. Norton. The what?
    Mr. Quander. The releasing authority, the Parole 
Commission, will release an individual under certain 
conditions. You have to maintain employment, no drug use. There 
are other conditions of release. Those are the conditions that 
an individual under supervision must follow. So when an 
individual is testing positive for any substance other than 
alcohol--unless the Parole Commission specifies no alcohol--if 
a person is testing positive, then that is a violation of his 
or her condition of release.
    As Commissioner Fulwood indicated, we do not recommend 
revocation for one violation or two or three. Actually, what 
happens is----
    Ms. Norton. You heard the testimony of one of the witnesses 
before you that he was told that marijuana was not a habit-
forming substance.
    Mr. Quander. That is not the way that we approach this 
problem. We look at drug use as something that needs to be 
addressed. And if you are using marijuana then there is a 
problem, and we want to correct that.
    The reason that there may be this indication of a greater 
use of technical violations is that we have to respond----
    Ms. Norton. The technical violation means you have not 
committed any crime, but it is a condition of parole. You 
didn't go out and commit an offense, you didn't break the law, 
but you did not live up to all of the conditions that Parole 
put on you, and therefore you are going back to prison, just 
like those who have, in fact, committed a crime.
    Mr. Quander. Except to the extent that drug use is a new 
crime and, in addition----
    Ms. Norton. Drug use. It is certainly true, Mr. Quander, 
that you are sentencing people to jail for drug use, and that 
is what I thought we didn't do in this country.
    Mr. Quander. What I am suggesting is not that we are 
sending them directly to jail for drug use. What we are doing 
is we are notifying the U.S. Parole Commission when a condition 
that they set has been violated. When we ask for a warrant or 
for a person to be revoked, we are asking because we have 
exhausted everything that we can do but that individual is non-
compliant. He is non-compliant to the sense that there is a 
risk to public safety, because if you came out of here to these 
conditions and we do not have confidence that you are not doing 
some other things, so that is why we have these graduated 
sanctions.
    Ms. Norton. So if you are smoking marijuana and you keep 
coming up with dirty urines, then we think you might be doing 
something else really dirty, really criminal? I mean, I don't 
understand the relationship.
    Mr. Quander. What we have to do is, since this----
    Ms. Norton. I can see your frustration, but this is putting 
somebody in prison.
    Mr. Quander. Not necessarily. The gentleman that spoke 
earlier, oftentimes it is not that singular event. It is not 
the marijuana. It is something else.
    The other thing that it supports is----
    Ms. Norton. He was very truthful. He was very truthful. He 
said it was several marijuana, several dirty urines, and 
failure to show up to his parole officer. Back in the slammer.
    Mr. Quander. That and other----
    Ms. Norton. Had a job, managed to get it on his own. Back 
to jail.
    Mr. Quander. And I can share with you the specifics of his 
case and any other case, but the issue is----
    Ms. Norton. He told us he had a lot, he said 10 or 15 times 
for marijuana. Of course he was told it is not habit forming. 
He said he had almost 15 times of dirty urine--not habit 
forming, and he had failed to show up to his parole officer.
    Mr. Quander. And that is one of the other issues. When you 
are not reporting to your parole officer when you are 
scheduled, when you are not adhering to any curfew that you are 
supposed to have, when we are going by and checking to see if, 
in fact, you are working when you are supposed to be there, and 
you are not----
    Ms. Norton. No, he was added to it. This man had a job. He 
was added to it. You are not working. You know, you can add 
enough things, Mr. Quander. I am trying to figure out at what 
point a condition for parole should be the equivalent of a 
crime, and that is what it is when you are put back to jail.
    Dr. Austin.
    Mr. Austin. It would be useful to look at other 
jurisdictions. In the State of Washington by statute you cannot 
go to prison for a technical violation.
    Ms. Norton. So what do they do?
    Mr. Austin. They do anything and everything they can except 
send them back to prison, and they have been doing this for 20 
years. Their crime rate is lower than most of the States in the 
northwest.
    One other thing I just wanted to add, which is very 
important, is that it starts with risk assessment. There is a 
group of people being released from the Federal prison system, 
D.C. inmates, who are low risk and are never going to come back 
again. One of the tactics we are supposed to be doing is to 
leave them alone, get them off of supervision as fast as 
possible. If you are doing drug testing on them, monitoring 
them--the research is very clear on this--you make them worse.
    Ms. Norton. Let me get this straight so I can understand. 
The argument the other way would go, well, you know, the longer 
they are under supervision the more ``likely'' they are to toe 
the line that you are after. That is not the case?
    Mr. Austin. No.
    Ms. Norton. Because they are not, in fact, committing 
crimes; they are violating parole.
    Mr. Austin. Most States are moving toward shorter periods 
of time on parole supervision. If there is a violation, if you 
are low risk and you do these kinds of things, you cannot go to 
prison. You can have sanctions imposed. You can have things 
moved around. But by law and by policy, you are not allowed to 
go back to prison because it is not proportional. The 
punishment is not proportional to the behavior. That is the 
issue.
    Ms. Buchanan. If I could address a couple of things, 
Congresswoman Norton. You asked about serving the longer 
sentences. Under the determinate system, a person could get a 
sentence in the range of, say, 5 to 15 years. There was a one-
third. The maximum was three times the minimum sentence. So the 
presumption before the D.C. Parole Board was that you are 
eligible for parole at the completion of the bottom number, the 
one-third. Most people got----
    Ms. Norton. I'm sorry. I can't hear you.
    Ms. Buchanan. Under indeterminate sentencing you could get 
a sentence that was a range. The bottom range was one-third of 
the top number, so a sentence for, say, robbery could be 5 to 
15. After you completed the 5-years, first 5 years of your 
sentence, you became eligible for consideration for parole. The 
D.C. Parole Board, using its own separate system of factors, 
would make release decisions.
    So part of the reason why we are seeing longer sentences 
under the determinate structure is that it is the U.S. Parole 
Commission who is making these decisions, and the salient 
factor score uses a different set of factors than----
    Ms. Norton. It sounds like they are imposing a Federal 
system on a State prison system.
    Ms. Buchanan. They are, and one of the factors that we have 
not talked about explicitly here----
    Ms. Norton. On the other hand, if I could just stop you for 
a second.
    Ms. Buchanan. Yes?
    Ms. Norton. As I look for ways to perhaps improve the 
system, getting into the morass about determinate versus 
indeterminate is just that--it seems to me, that we have been 
through that. We kept them from putting the Federal sentencing 
guidelines on the District.
    Ms. Buchanan. Essentially, my point is the D.C. Parole 
Board considered you earlier for parole.
    Ms. Norton. The whole notion of discretion----
    Ms. Buchanan. Yes.
    Ms. Norton. It is interesting how the whole notion of 
getting rid of discretion developed, because more privileged 
people were likely to benefit from this system. It has had the 
opposite effect from what everybody wanted it to have, and so 
now we have a system that is so much on a grid that we see 
atrocious results.
    I realize that I am working off of special sentencing 
guidelines, but I wonder if D.C.'s sentencing guidelines have 
any of this built into them, as well.
    Ms. Buchanan. Have what built into them?
    Ms. Norton. D.C. has its own set of sentencing guidelines.
    Ms. Buchanan. Yes.
    Ms. Norton. We were able to keep from taking the Federal 
sentencing guidelines. Is any of this attributable to D.C.'s 
sentencing guidelines?
    Ms. Buchanan. No, I don't believe so. The Commission that 
created the guidelines was very careful about trying to 
determine what the existing practices were and not getting too 
far afield from them.
    The other point I wanted to make is, I think everyone on 
this panel would agree that one big issue for parole revocation 
and supervised release revocation, especially for these 
technical violations that involve drug use, is the resources 
available in the community for drug treatment. There is a huge 
challenge there.
    Ms. Norton. We are not going to be able to do anything 
about some of these things.
    Ms. Buchanan. Right, but----
    Ms. Norton. We can't get drug treatment for people who want 
it, have never committed a crime. The problem I have here as a 
Member of Congress is, I can't change the whole system. I have 
to find a way to deal with an unfairness without somebody 
saying, ``Hey, up-end the whole system, drug treatment on 
demand, and everything will be hunky-dory.'' I also don't 
believe that, because a lot of the drug treatment doesn't even 
work.
    Mr. Fulwood. Just a point of clarity. The court determines 
when a person is going on supervised release. They set the 
date. Is that not correct?
    Ms. Buchanan. I believe so.
    Mr. Fulwood. Yes. I mean, it is not the Parole Commission 
that sets the supervised release date.
    Ms. Norton. You mean the initial?
    Mr. Fulwood. Yes.
    Mr. Quander. Ms. Norton, when a court imposes a sentence, 
that court gives a sentence. For example, 10 years for 
aggravated assault. Under the sentencing scheme, that 
individual has to serve 85 percent of that, so that individual 
knows. Everyone knows that he will be eligible for supervised 
release in 8\1/2\ years. That is when that individual is going 
to be released. That is under the sentencing scheme that is in 
place now.
    Ms. Norton. But, of course, that is not the case is it, Dr. 
Austin, because you lose your street time, so you can have 
perpetual parole, because every time you--well, you lose your 
street time only if you go back to jail?
    Mr. Quander. The difference in this--and we are getting 
into the morass of it--the difference in the new sentencing 
structure is that person has that 10-year sentence, and if he 
is serving 8\1/2\ years, all that remains is that additional 
period of time, that year and a half.
    Under the old system that Ms. Buchanan was talking about, 
when that individual was sentenced to 5 to 15 years, if that 
individual was released after 5 years then he still had 10 
years to go. So even if he got to year 14 and then there is a 
new law violation and his parole is revoked at year 14, he 
would lose all of that time from the point when he was 
released. So he would lose from year 6 all the way up to year 
14 as far as his street time. That, I believe, is different 
under the new sentencing scheme, but there are still 
individuals who are on parole now that face that dilemma. I 
believe it is the Noble case or the Noble decision that 
indicates----
    Mr. Fulwood. The Noble decision.
    Mr. Quander [continuing]. that street time is forfeited.
    Mr. Fulwood. And that was due to the D.C. Board, when they 
were in existence, did not interpret the law that way, the 
statute, itself. When the U.S. Parole Commission got the D.C. 
population, they interpreted the statute differently. A case 
went to court, and the court said the U.S. Parole Commission is 
correct in getting rid of the street time.
    Now, we are, at the present time, getting ready to meet 
with--I think it is the Washington Lawyers on Civil Rights 
about that issue, because that is clearly a place that we need 
to look into.
    My general feeling, just my personal feeling, is that we 
should not automatically revoke people's time; that we ought to 
look at cases individually.
    Ms. Norton. What purpose does it serve to revoke people's 
street time?
    Mr. Fulwood. Put them back. They have to start over.
    Ms. Norton. What would be the rationale that they would 
offer, those who came up with that system?
    Mr. Austin. There is no scientific basis in terms of public 
safety.
    I just want to add one other thing, which may sound 
controversial, but there are drug users and there are drug 
abusers, and you have to distinguish this. There are probably 
25 million Americans that are using drugs illegally every day 
and they are not involved in criminal activity. So we have to 
make this distinction between people that use drugs 
recreationally and those that are abusing drugs, and that is 
linked to their criminal behavior.
    Just because you test dirty doesn't mean you are at risk to 
go out and commit a crime. This should be clear to all of us, 
because we are all grown adults. We know this, but we don't act 
like this. We have a standard policy for everyone, even though 
it is very different behavior.
    Ms. Norton. This is so-called zero tolerance.
    Mr. Austin. Well, mandatory drug testing is what is causing 
a lot of the revocations. If you start testing everyone, you 
are going to bring in a lot of fish.
    Ms. Norton. But Mr. Quander says, and we are certain, that 
you have to do a lot of bad marijuana urines in order--I don't 
know how 15 marijuana urines makes you any more susceptible to 
crime than 3. I mean, the fact is, you like weed. I don't 
understand the relationship between marijuana users and crime. 
That is the correlation I am looking for.
    Mr. Austin. And a parolee that starts smoking dope knows 
they are going to test positive in the next 30 days, so they 
don't go in because they know they are going to test dirty, and 
now you have two violations--not showing up, and when they do 
show up they do the test, they fall off the wagon. That is our 
snowball.
    Ms. Norton. Mr. Quander, I think it was in Ms. Buchanan's 
testimony that she said somebody goes in who hadn't been going 
in and gets arrested. He had not been reporting. He reports and 
he gets arrested.
    I don't mean to suggest that this is done arbitrarily. I 
guess that is my question, though. For example, you may have 
heard Mr. Brown. Mr. Brown, I think, was there before you, and 
had quite the alternative sanction system you have. This man 
had a job. He was a plumber. He had marijuana. He didn't show 
up a few times. He told the Parole Commission, I'm going to 
lose my job, and obviously he did.
    Would such a person today be sanctioned all the way back to 
prison?
    Mr. Quander. Before we write to the Parole Commission, we 
employ the sanctions, even before it leaves our office. We 
don't revoke anyone at all. What we do is we supervise 
individuals, we monitor them, we try to provide support, and we 
try to provide sanctions and guidance so that we can correct 
non-compliant behavior.
    If it appears that the individual, despite our best efforts 
and despite the documented attempts----
    Ms. Norton. Mr. Quander, I understand the general rule. I 
just gave you a hypothetical. Would that man today, Mr. Brown, 
have, in fact, been sent back to prison? I understand he was in 
2004. In 2007, would this man with 15-something marijuana--I'm 
going to tell you exactly what my hypothetical is. Re-arrested 
in 2004 for a dirty urine test, marijuana, about 15 samples in 
about a 3-month period, and a no-show for his meeting with his 
parole officer, re-arrested after a warrant was issued. I am 
asking you, in 2007, would this man have been re-arrested? He 
had a job.
    Mr. Quander. We don't re-arrest anyone.
    Ms. Norton. I'm just saying, would this man be arrested? 
Whether you would have--you understand my question?
    Mr. Quander. I think I do. Let me try to explain it this 
way: all the times when we are writing----
    Ms. Norton. I'm not going to be able to get through my 
questions. I understand the general principle. That is why I 
put a specific. If all you knew was what I just put to you, 
would this man be arrested in 2007? Would it be your judgment 
that he should be arrested in 2007?
    Mr. Quander. It would be our recommendation to the Parole 
Commission that some action be taken. It could be a warrant. It 
could be a letter of reprimand. It could be any number of 
things that we would recommend to the Parole Commission.
    Ms. Norton. OK. I hope I take that as a no, because I told 
you in my hypothetical the man went back to prison, and he had 
a job. He was working at that point at Kaiser Permanente--no, 
I'm sorry. He had a number of different jobs. He had a job.
    I'm going to move on. I am just trying to establish what it 
takes, what degree of technical violation it takes, to give up 
on a person and to consider--look, we don't have anything else 
to do. We have tried everything we can do.
    I wonder if it is related to what you report, Mr. Quander, 
in your testimony about the average caseload. You are 
recommended to have 50--you report on page 279--per officer?
    Mr. Quander. Yes. Ten years ago the average was 
approximately 179 per officer. The national standard was, in 
general supervision, 50 offenders to one supervision officer. 
We are a little bit below that now.
    Ms. Norton. So you don't have 50?
    Mr. Quander. No, for general supervision we are below that 
now, so we are better than the national average.
    Ms. Norton. I understand that these things do depend upon 
the circumstances involved. You are not suggesting, Ms. 
Buchanan, that these matters go to court every time that there 
is going to be a revocation?
    Ms. Buchanan. To court? Well, going to court is the last 
step once the person is unsuccessful at the U.S. Parole 
Commission level, but our experience is that most of their 
violations that come to our caseload are technical violations. 
For example, yesterday----
    Ms. Norton. No. My question is: I thought you were 
suggesting that, instead of going to the Commission, that the 
court that originally decided the matter----
    Ms. Buchanan. Yes. I'm sorry.
    Ms. Norton [continuing]. Should decide whether parole 
should be revoked.
    Ms. Buchanan. Yes.
    Ms. Norton. Is that what you----
    Ms. Buchanan. Yes, that is correct.
    Ms. Norton. Oh, my God. Wouldn't that be essentially 
throwing out the administrative process, which is always set up 
in order to keep the courts from being overloaded?
    Ms. Buchanan. Well, the option is to re-establish the D.C. 
Parole Board, but the idea of going through court is to set it 
up like a probation, probation monitoring, where the judge who 
imposed the sentence is most familiar with the facts and 
circumstances leading up to whatever brings the person before 
the----
    Ms. Norton. I am pressing this because I am looking for a 
solution that I could, in fact, sell here.
    You say, Dr. Austin, about a new system that you are 
working on?
    Mr. Austin. Yes?
    Ms. Norton. Now, any new system you are working on would 
have to be approved by the Justice Department; isn't that so?
    Mr. Austin. I don't know. It would have to be approved by 
the Parole Commission, I know.
    Ms. Norton. I thought you meant you were working with the 
Parole Commission.
    Mr. Austin. Yes.
    Ms. Norton. Chief Fulwood, could you institute a new system 
on your own?
    Mr. Fulwood. I believe we can. That is why we have 
authorized----
    Ms. Norton. Would it then have to be approved by the 
current Justice Department?
    Mr. Fulwood. I don't think so. I mean, we are an 
independent body within the Justice Department that has 
Presidential appointee commissioners. We have authorized the 
study. We are now moving to try to implement a new salient 
factors score. The administrative process, to me, is a better 
process. I don't think it ought to go back to judges. I don't 
think judges are any different.
    Mr. Austin. I want to echo, Congresswoman Norton, that the 
current parole Commissioners are moving aggressively in the 
right direction, and I think we need to give them some time to 
see how quickly they can implement a proper system. That would 
be my recommendation.
    Ms. Norton. Well, they certainly are moving. If you think 
that it can and will be done administratively, that is 
certainly better than putting it through. I would hate to think 
that it could be done and then could be unraveled based on what 
administration was in power. So I am looking for your advice 
and counsel on that.
    Ms. Buchanan. We would certainly be happy to see the 
salient factor score system changed, and my recommendation for 
the courts taking over is a parallel to the supervised release 
system. Those matters go back before the original judge, as 
well.
    The supervised release would be a huge change that we 
believe should have the kind of impact that we are talking 
about having.
    Mr. Austin. And the fact that it goes back to judges, and 
judges are struggling with this, too. I mean, we shouldn't sit 
here like it is something nice when they go back to judges. It 
doesn't. Judges are struggling with this whole thing about how 
to handle substance abuse cases, how to handle people who come 
back repeatedly.
    I have talked to judges who say, this guy has been back 
here five times. What am I going to do? You know, they are 
struggling with it. That is why, as I said earlier, this is a 
very difficult thing to do.
    I agree with her that there are not enough treatment beds, 
that people continue to come back. There are not enough 
treatment facilities to address this problem. I suggest to you 
that it is going to get worse as the demographics in the city 
continue to change, because there is no place for them to go, 
unless you are going to keep putting them in the southeast--and 
not Capitol Hill southeast, over on the other side of the river 
where Buchanan lives, and I live, and Paul Quander lives. Most 
judges don't live in this city.
    Mr. Quander. Can I make one point? Under the Federal 
system, the supervised releasees go back to the sentencing 
judge.
    Ms. Norton. Right.
    Mr. Quander. In the local court, once that individual is 
released on supervised release, the supervision of that 
individual falls to the U.S. Parole Commission. So, the 
supervised releasees in the District of Columbia are supervised 
by the U.S. Parole Commission as opposed to the Superior Court 
judges.
    Ms. Norton. All right. Just let me finally just establish 
what we have established here.
    Are almost all of the inmates we are talking about here 
non-violent offenders?
    Mr. Quander. No. It varies. We have the full range. In my 
testimony, I indicated that most of the individuals who we have 
filed requests for action are at the maximum or intensive level 
of supervision. It ranges from your violent offender to your 
non-violent offender who has shown a propensity to not follow 
the rules and is posing a danger to the community. So it is the 
full range of offenders.
    Ms. Norton. In your judgment, are changes by the D.C. 
Council needed to assure that some of the improvements you have 
indicated take place?
    Mr. Fulwood. On the Noble decision there is a bill going to 
be introduced to the Council. I am sorry that I have lost the 
guy's name.
    Ms. Norton. That is all right. If you think that is going 
to happen, I would like staff to----
    Mr. Fulwood. Phil Formasce. Phil, who is introducing the 
bill in the Council to change the Noble decision.
    Ms. Buchanan. The Public Defender Service is working on 
that issue, as well, with Mr. Formasce on the Washington----
    Ms. Norton. Sorry?
    Ms. Buchanan. The Public Defender Service is also working 
with Mr. Formasce on that issue.
    Ms. Norton. So you do think a change in D.C. law is 
necessary?
    Ms. Buchanan. Yes, on the Noble decision. Exactly. Yes.
    Ms. Norton. Dr. Austin, you say that if you try to say you 
ought to, in fact, abolish a policy that has been in place, you 
have to be able to say why it was put in place and why it 
failed. We deny street time. Is that just an anomaly, or was 
there a reason? Is there a reasoning chronology for it?
    Mr. Austin. No. There is no scientific basis.
    Ms. Norton. Where does it come from?
    Mr. Austin. I don't know, but there is no scientific basis.
    Ms. Norton. Are we the only place? These prisoners----
    Mr. Austin. No. Other States used to do that, but almost--I 
could rattle off 10 to 12 States now that are getting rid of 
that policy because you are just wasting huge amounts of 
taxpayer dollars trying to overly punish people. It is just 
unnecessary; doesn't make anyone safer; just costs a lot of 
money.
    Ms. Buchanan. I think it is punitive, purely punitive. That 
is the motivation for doing it.
    Ms. Norton. It is what?
    Ms. Buchanan. It is purely punitive, and the District has 
deliberately set out to change the law in order to counteract 
that. It was a Court of Appeals decision that relied on a 
tangential argument to say that we had to keep the current 
system in place, and that is why we are working with Mr. 
Formasce to change the law.
    Ms. Norton. Is this the U.S. Court of Appeals or the D.C. 
Court of Appeals?
    Ms. Buchanan. The D.C. Court of Appeals ruled that the D.C. 
Council did not effectively change the law, and that is why we 
are trying to go back and make that specific change with that 
specific intent.
    Ms. Norton. I am curious about why there would be this 
increase in drug violations after at least some of these 
inmates have access to the Board of Prisons' 500-hour program, 
which is generally highly regarded. We know that at Rivers they 
didn't have it. I suppose they didn't really have it even at 
BOP, because we just got the law changed; is that right?
    Mr. Quander. I'm not sure what the current status of the 
law is.
    Ms. Norton. Well, we are going to have testimony that they 
have new regulations.
    Mr. Quander. OK.
    Ms. Norton. I am just trying to establish that one of the 
reasons that we may have this escalation--there may be many 
reasons. There are more drugs in society and the like--is that, 
since D.C. residents have been under the supervision of the 
Board of Prisons, they have not been eligible, until very 
recently, for the state-of-the-art drug program. So, they go in 
dirty; they come out dirty. Now we are paying for it by sending 
them back in.
    I appreciate your indulgence, Mr. Chairman. I am trying to 
find my way through the possibility of changes here that would 
be lasting and quick, and I have been trying by this line of 
questions to understand what in the world happens here. I 
appreciate very much your indulgence in allowing me to question 
these witnesses.
    Mr. Davis of Illinois. Thank you very much. I only have one 
additional question.
    Dr. Austin, do you have any idea as to why the D.C. 
sentences are longer than in other jurisdictions?
    Mr. Austin. Again, just to clarify, the old sentencing 
structure is what we have been talking about. The new 
sentencing structure is probably more in line with other 
States. We need to get you and the Congresswoman a calculation. 
We do a comparison to show how they stack up, that we could do 
pretty easily. The Sentencing Commission has good staff, and 
they can provide information on that.
    The one thing that is different is your 85 percent 
requirement, which requires them to serve a certain amount, a 
portion of that time. In your State it is 50 percent. Other 
places it is 80 percent. In some places it is 75 percent. In 
some places it is 40 percent. I keep telling this over and over 
again: you can set that percentage at any level. It doesn't 
have any impact on the recidivism rate or public safety. It has 
a big impact on your budget. So you kind of pick your medicine, 
whatever you want to go with, but scientifically it doesn't 
have an impact on public safety. It has a big impact on the 
size of your prison population.
    Mr. Davis of Illinois. All right. Thank you all so very 
much. We appreciate your testimony and your indulgence. You are 
excused.
    Mr. Quander. Thank you.
    Mr. Fulwood. Thank you.
    Ms. Buchanan. Thank you.
    Mr. Davis of Illinois. Thank you.
    Mr. Austin. Thank you.
    Mr. Davis of Illinois. Our next witness, of course, for 
panel three is Mr. George Snyder, who has served as the warden 
of Rivers Correctional Institution since 2003. As Warden, Mr. 
Snyder is responsible for the administration, operation, and 
correctional training of offenders at Rivers.
    Warden Snyder, thank you so much for being with us. Please 
stand and raise your right hand. It is the tradition that all 
witnesses be sworn in.
    [Witness sworn.]
    Mr. Davis of Illinois. The record will show that the 
witness answered in the affirmative.
    Of course, you have done this so many times. If you would, 
just go ahead and proceed with your 5 minutes. Then we will get 
into some questions and answers.

    STATEMENT OF GEORGE SNYDER, WARDEN, RIVERS CORRECTIONAL 
                          INSTITUTION

    Mr. Snyder. Thank you, Chairman Davis and Congresswoman 
Norton.
    My name is George Snyder, warden of Rivers Correctional 
Institution located in Winton, NC. On behalf of the GEO Group, 
I thank you for the opportunity to testify regarding the 
various pre-release programs offered to inmates housed in our 
facility.
    As a result of the National Revitalization Act of 1997, on 
March 7, 2000, the Federal Board of Prisons signed a contract 
with the GEO Group to design, build, finance, own, operate, and 
manage a low-security, adult, male facility in Winton, NC. We 
received our first D.C. inmates in March 2001.
    Located on a 257-acre tract in rural Hertford County, the 
facility has a campus designed with four housing buildings, 
indoor and outdoor recreational areas, a central programs 
building, a prison industries building, and an administrative 
building. The design enables cost-effective utilization of 
security staff, supplemented by modern electronic surveillance, 
which, in turn, allows enhanced programming activities without 
significant budgetary implications.
    Our average inmate population is 1,350, with approximately 
65 percent of the inmates coming from the District of Columbia. 
Rivers Correctional Institution is 226 miles from Washington, 
DC.
    Because of time constraints, I would like to briefly review 
some of the programs that we have at our facility which we feel 
the subcommittee has the most interest.
    Our psychology department provides individual and group 
psychotherapy to those inmates who are court ordered to 
participate in treatment; who are referred to treatment by 
facility management, staff; or who volunteer to participate in 
the treatment.
    Since Congresswoman Norton's visit to our facility, and 
since the last subcommittee hearing, RCI began preparation for 
implementation of its 9-month residential drug treatment 
program. The program will provide a continuum of treatment 
services to inmates with a documented history of substance 
abuse programs and will be conducted within a highly structured 
regimen of a modified therapeutic community comprised of 
inmates with similar problems living and working together. In 
addition to programming incentives, eligible inmates may 
receive up to 1 year off of their sentence for successful 
completion of the program.
    The following actions have been taken toward implementation 
of the program:
    As Congresswoman Norton mentioned, the Board of Prisons has 
been very diligent recently, and they approved and budgeted for 
this substance abuse program. Since their approval and 
budgeting, we have advertised that we have vacancies for three 
drug abuse specialists and one drug abuse program coordinator, 
have been advertised in a variety of formats, through the 
radio, internet, and newspapers in Virginia and North Carolina. 
Offers have been made and accepted for two drug treatment 
specialists. Training has been conducted for facility staff 
regarding the drug abuse programming and inmate eligibility 
requirements.
    Approximately 25 inmates from the general population have 
completed application for entrance into the program, and we 
have expanded the office space for the drug treatment staff and 
inmate housing unit area, and it is nearing completion.
    Full implementation of the program is scheduled to begin 
May 1st.
    When we discuss pre-release programs, we must address our 
unit management concept. Upon entry into the facility, inmates 
are assigned to a housing unit, and once in the unit assigned 
to a unit team. These unit teams manage the inmate's needs 
throughout his stay at the facility. In unit management, 
release preparation begins the very first day of incarceration 
and continues until the inmate is released or transferred. This 
release preparation may include one or more of the following 
vocational and educational programs that we have: we have 
English as a second language, adult basic education, general 
education development [GED], keyboarding, computer technology I 
and II, life skills and parenting, and a release preparation 
program.
    I just want to spend a moment to talk about this program. 
This program provides life skills that prepare inmates to re-
enter the community. The core curriculum is organized into six 
broad categories: health, nutrition, employment, personal 
finance/consumer skills, community resources, release 
requirements, and aspects of personal growth and development. 
This intensive course covers a variety of topics, each chosen 
to strengthen the individual's chances for successful re-entry 
into society and it mirrors what the Board of Prisons offers.
    We also have a vocational woodworking technology program. 
One of our most successful programs has been the heating, 
ventilation, and air conditioning program.
    Of course, we have the work force transition program, which 
we began this last year, and that has been in collaboration 
with the University of District of Columbia and CSOSA.
    I would just like to take a moment to comment on CSOSA. 
They have been a wonderful partner in all of our collaborations 
in trying to come up with programs that truly work for the 
needs of the inmate. I would like to thank Mr. Quander and his 
staff. But this program work is a work readiness program that 
prepares the individual inmates to address work force needs and 
marketable skills.
    Since the last hearing, we have begun preparation for a 
building construction technology program. This program, as with 
the drug program, is scheduled to begin of May 2008. The 
building trades program will be certified through the National 
Center for Construction, Education, and Research, using the 
nationally recognized Wheels of Learning instructional 
materials, and will be taught by certified instructors from our 
local community college, Roanoke-Chowan Community College. The 
program will accommodate 45 inmates per a 16-week semester. At 
the completion of this program, the inmates will be certified 
and will qualify for entry-level employment in the construction 
industry.
    I would like to state that Mr. Brown stated that we had the 
HVAC program but there was an age restriction on that from age 
18 to age 24. There is only one criteria for this new building 
construction program that we have, and that is that the inmate 
must have at least 6 months left on his sentence.
    Mr. Chairman, that concludes my summation of a few of the 
programs that we offer at Rivers, and I look forward to 
answering any questions that you and Ms. Norton may have.
    [The prepared statement of Mr. Snyder follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Davis of Illinois. Thank you very much. Again, we 
appreciate your indulgence and your being here.
    Let me ask, when did Rivers get its contract?
    Mr. Snyder. It was in 2000. The original contract was in 
March 2001.
    Mr. Davis of Illinois. In 2001?
    Mr. Snyder. Yes, sir.
    Mr. Davis of Illinois. Do you have any data relative to 
inmates who have been released and who may be re-incarcerated?
    Mr. Snyder. No, sir. We don't track that data.
    Mr. Davis of Illinois. And so it would be pretty difficult 
to determine the effectiveness of some of the programs relative 
to recidivism reduction; that is, determining whether or not 
the individuals have gotten out and whether or not they have 
come back? Whether they have been re-incarcerated or still 
experiencing the same problems that they may have experienced 
before?
    Mr. Snyder. That would be difficult, yes, sir.
    Mr. Davis of Illinois. I think that is something that we 
need to begin to look at in terms of individuals who are 
incarcerated so that we can tell or have a better handle on 
whether or not at least that component of what we are doing is 
being effective.
    Given the population that comes from the District of 
Columbia, which areas of need do you think exist the most? I'm 
saying there are some individuals who come in who probably need 
anger management. There are some individuals who just barely 
can read and write who need general education development. 
There are some individuals who maybe can do that but they don't 
have any specific skill that they can make use of. Is there any 
area of greatest need that you have been able to determine?
    Mr. Snyder. I don't have any data to back this up, sir, but 
I would feel that job preparation. It is so very difficult for 
someone getting out of prison to succeed. Then, having a job 
certainly, I think, some data nationally would show that job 
preparation would be probably the greatest need that people 
would have.
    Mr. Davis of Illinois. I would agree with you, because it 
seems to me that, no matter what else is going on in a person's 
life, if they can't find a job, if all of these work barriers 
continue to exist, then in all likelihood we can expect a good 
number of them to end up back, if not at Rivers, some place 
else. The same circumstances that got them there in the first 
place pretty much continue to exist in their lives, unless 
somehow or another, that has not been corrected.
    The other question that I would have--I like the idea of 
the psychotherapy, the drug treatment. One of our witnesses 
testified about receiving $0.12 an hour for work.
    Mr. Snyder. Yes, sir.
    Mr. Davis of Illinois. As a person who is inside and who 
comes in contact with the thinking of inmates and with staff, 
what is the reaction overall to that? Is that something that 
inmates moan and groan about? Is it something that they find 
distasteful? Is it something they complain about? Is it 
something that maybe helps to develop negative attitudes rather 
than positive attitudes when they ultimately get out?
    Mr. Snyder. Concerning attitudes and getting out, I am not 
sure about that, but I can comment on how they feel when they 
are in. We try to tier their pay. There are some jobs that pay 
lower than that, some pay higher than the $0.12. It may go up 
to $0.14. We try to mirror it after society. Those that have an 
education would get the higher pay, lower education. We try to 
encourage them, for example, to get the GED. To get the highest 
pay grade level, you have to have a GED or have an exemption to 
the GED for some reason. So we try to mirror it. That is a 
contention with inmates, the pay rates, but our pay rates 
mirror the Board of Prisons pay rates. We try to keep our 
operations very similar to the Board of Prisons, because we 
have inmates that transfer from Bureau facilities to our 
facilities, so we try to keep them very similar.
    So there is a concern about the pay rate, but I have been 
doing this for 28 years now and it is always a concern. It is a 
similar concern that people have in society. They would like 
more money for their work.
    Mr. Davis of Illinois. All right. Thank you very much.
    Mr. Snyder. Yes, sir.
    Mr. Davis of Illinois. Delegate Norton.
    Ms. Norton. Mr. Chairman, this was very straightforward 
testimony. I have only a few questions, because this is in the 
nature of a status report, the kind of status report, I must 
tell you, that Members of Congress in committees like ours like 
to hear--progress.
    I do want to say to you, Mr. Snyder, you will find me--and 
I believe the chairman and the entire subcommittee is likely to 
be as quick to commend as to criticize. As I said in my opening 
testimony, you deserve credit, given our last hearing, given 
our trip, and so does Mr. Lapin. I said, of course, at that 
hearing that you were not funded to do the equalization, as I 
called it, of services, and so that took Director Lapin's 
intervention, and he was quick to do so. So I want to just say 
for the record how much we appreciate the straightforward way 
you moved ahead.
    Now, the program that you are building a facility, drug 
rehabilitation program, you can see how much that would mean to 
the District of Columbia when you hear that people get sent 
back to Rivers because chiefly of some kind of minor 
infraction, particularly drug abuse--we understand, perhaps, 
upwards of 70 percent of these offenders now. I don't know how 
many of them have had access, because it only started with the 
500-hour program, so it would be very interesting for us to 
trace whether or not--now that we are going to have the 500-
hour program available in BOP facilities and at Rivers--whether 
that has an effect upon these drug revocations.
    The importance of the 500-hour program, I said, is that 
they reinforce one another, because they live together, and 
they have an incentive that if they complete the program 
satisfactorily, they could get as much as a year reduced from 
their sentence. Is that true?
    Mr. Snyder. That is correct. Yes, they can receive up to 1 
year off.
    Ms. Norton. If you are looking for an incentive, it seems 
to me that is the paradigm for an incentive.
    The chairman asked about whether or not there was any 
system for tracking essentially whether these programs work 
like the new programs reporting into effect. I do believe that 
the Board of Prisons has a strong reputation for, in fact, 
doing control studies or doing studies all the time. Since 
Rivers is just starting with these new programs, I must ask you 
whether you know if the Board of Prisons intends to track your 
programs to see if there is any difference, for example, as the 
chairman says, whether there is more recidivism when people 
have had access to programs and when they haven't? Do you know 
of any such plan?
    Mr. Snyder. I don't know that they are going to do it. I 
think they may have the mechanism in place already, and just 
apply it to these inmates, but I can certainly find that out 
and get back with you.
    Ms. Norton. I know the Board of Prisons has lower 
recidivism rates than most State prisons, and I think this is 
something that staff will want to track.
    Mr. Davis of Illinois. Here we have tabula rosa almost here 
that is ready-made for somebody to track and see what makes a 
difference, and that is the only way you can know how to 
improve what to continue in the rest of it.
    Now, May 1st is when?
    Mr. Snyder. That is the target date to begin both of the 
programs.
    Ms. Norton. All right. And you are on target so far?
    Mr. Snyder. Yes, ma'am.
    Ms. Norton. Now, you have testified that the drug program, 
drug rehabilitation program, is a 500-hour program that they 
have at other BOP facilities. Are all of the other programs 
that you have testified about also comparable to the BOP 
programs, building construction technology, for example?
    Mr. Snyder. Building construction technology, that program 
is designed by requirements that the Board of Prisons have 
given us in a statement of work. They said, we want this type 
of program that certifies and would be a certain length. So I 
assume that it meets their requirements of what they are 
looking for. Yes, ma'am.
    Ms. Norton. Mr. Chairman, I just want to note that--well, 
maybe I should ask about the HVAC program first. I was a little 
concerned about the HVAC program, not that this is not exactly 
the kind of skill that is likely to be used. But, there are all 
kinds of issues about being employed, particularly if you work 
in people's homes and so forth.
    I note this construction industry training you are engaged 
in here now, not only does it seem to me this is--well, first 
let me just say for the record, if you talk to people in the 
construction trades, they will tell you that, although the rate 
of pay remains what it always was, a very high rate of pay, 
that people who might have gone into construction no longer do. 
They will go fool with some computer somewhere. Thus, we have 
found that it is easier to get people hired in the construction 
trades today. They will take ex-offenders in the construction 
trade. There is a job shortage there.
    I must say, I am pleased to see such things as roofing, 
exterior siding, basic residential plumbing, drywall. And, of 
course, we had some discussions with you, but I think what you 
have done is to look at where there is a market----
    Mr. Snyder. Yes, ma'am.
    Ms. Norton [continuing]. Where there is a need, and I 
believe you have hooked up with where the need is in this 
region now.
    You heard Mr. Brown--perhaps you were here when he 
testified--that for HVAC there was an age limit and, although 
he is a young man, he couldn't get into the program. Is that 
because of the trade, itself, requires that for apprenticeship 
training and the like?
    Mr. Snyder. The HVAC requirement on the age of 18 to 24 was 
because it was a State Department of Education program that was 
a grant program. It was tied to that specific age.
    Ms. Norton. Is that program still going on?
    Mr. Snyder. It is still going on, and it is functioning 
well, actually. Many inmates are paying for it themselves now. 
You know, an inmate could enroll in it if they wanted to.
    Mr. Davis of Illinois. I have an amendment in the Higher 
Education Act to try and take that age restriction off.
    Ms. Norton. Oh, thank you.
    Mr. Davis of Illinois. I don't know whether or not and the 
extent to which it is going to be done, but we do have an 
amendment in Higher Education to try and make that happen.
    Ms. Norton. Mr. Chairman is on that committee, the 
Education Committee.
    Mr. Snyder. OK. Great.
    Ms. Norton. What about these other certified building 
programs? Is there any age limit on them?
    Mr. Snyder. There is no restrictions whatsoever, other than 
an inmate must have at least 6 months remaining on his sentence 
to qualify to enter the program.
    Ms. Norton. Because you need time to do it?
    Mr. Snyder. You need time, at least 6 months to finish part 
of the program. Yes, ma'am.
    Ms. Norton. Warden Snyder, I recall that many of those who 
were at Rivers were essentially parole revocations when I 
visited. Is that still the case?
    Mr. Snyder. There are still quite a few. Yes, ma'am.
    Ms. Norton. Rivers also seemed to be a place where people 
transitioned from other BOP facilities. Would you describe 
roughly the proportions?
    Mr. Snyder. This is just a guess, because I have no data to 
support this, but I would say 50 percent of them. It may be as 
high as 50 percent could be parole revocations. Maybe 40 
percent maybe. I am not for sure. I don't have that data.
    Ms. Norton. You mentioned UDC. What is the involvement of 
UDC, please?
    Mr. Snyder. University of the District of Columbia?
    Ms. Norton. Didn't you mention the University?
    Mr. Snyder. Yes. The University of District of Columbia, 
they work on a work force transition program in conjunction 
with CSOSA, and it is a work readiness program. They come in 
and do a battery assessment on the inmate, and actually after 
they do the assessment on the inmate, after the inmate is 
released, he is transitioned to the University of District of 
Columbia for the after-care program with the District.
    Ms. Norton. So how many inmates have gone through that 
program and then gone on to the University of the District of 
Columbia?
    Mr. Snyder. We have our first cohort, I guess you could 
call it, that has been released and the District will be 
working with, and we will be starting another group where they 
will be coming in to our facility.
    Ms. Norton. So when they go to UDC, what are they doing 
there?
    Mr. Snyder. It is my understanding that the next step is 
job readiness, job training of some type.
    Ms. Norton. I see my CSOSA friends are here. I can't 
understand why there is not a long-distance college course or 
course of some kind between--I'm talking about by video--
between our State university, the University of the District of 
Columbia, and Rivers. I just don't understand it. Would there 
be any reasons not to do that?
    Mr. Snyder. The majority of our inmates are there for less 
than a year, I guess, and----
    Ms. Norton. Yes. You go to school for 9 months.
    Mr. Snyder. And I agree with you on that, Congresswoman. 
But I guess finding a commonality of a course that all of them 
would take, if it is an academic course, something that----
    Ms. Norton. Well, remember UDC is not simply a place where 
people go to become doctors, lawyers, and Indian Chiefs; it is 
a combination junior college and full-fledged university.
    Mr. Snyder. Yes, ma'am.
    Ms. Norton. Again, this is something I think I am going to 
have to work on.
    Mr. Davis of Illinois. Representative Norton, I am going to 
run and vote. Those others have been motions to adjourn; this 
is a motion on tabling the ruling of the Chair, and so I am 
going to go and vote on that.
    Ms. Norton [presiding]. One of the few ways in which the 
District of Columbia perhaps benefits from my not having the 
vote is that at least witnesses don't have to wait until I 
return from voting, unless it is the committee as a whole, and 
this is not, but this is a very important vote for the chairman 
to go to. He says I can proceed with the next witness when we 
are through, and I am almost through here.
    I must tell you I can think of the kinds of UDC courses I 
have in mind. Assuming that there was a UDC course of some 
kind, whether it is in the present curriculum or not, would the 
facilities at Rivers be amenable to a video course offered from 
the District of Columbia to people who would take the course at 
Rivers in preparation perhaps for the next step when they get 
out?
    Mr. Snyder. Most assuredly. Anything that we can do to 
help, and we have, like I said, had good partnership with 
CSOSA. If we can come up with something else, we would 
certainly be open to it, yes.
    Ms. Norton. Well, let me just say, I get the idea from what 
CSOSA has done. I think CSOSA has begun in the right place. 
Let's get people ready for a job. I must say I was impressed by 
the fact that these, your own people, Warden Snyder, told me 
that many of the D.C. inmates were articulate and intelligent 
and ready to move on, had indeed had some good amount of 
education. We just had one witness here who graduated from 
McKinley High School.
    To the extent that we can even encourage people to begin 
college, even if you have only 1 year of college today you are 
way above where you would have been without any college at all.
    Those were all the questions I have, and I very much 
appreciate your coming.
    Mr. Snyder. Thank you very much. I appreciate it.
    Ms. Norton. We go to the last panel. The last panel is 
Chief Judge Rufus King, Superior Court of the District of 
Columbia, and Betty Ballester, J.D., D.C. Superior Court Trial 
Lawyers Association.
    Would you please stand and be sworn?
    [Witnesses sworn.]
    Ms. Norton. The record will show that each witness answered 
in the affirmative.
    Judge King.

  STATEMENTS OF RUFUS G. KING III, CHIEF JUDGE, D.C. SUPERIOR 
  COURT; AND BETTY BALLESTER, PRESIDENT, D.C. SUPERIOR COURT 
                   TRIAL LAWYERS ASSOCIATION

                 STATEMENT OF RUFUS G. KING III

    Judge King. Good afternoon, Congresswoman Norton, and for 
the members of the subcommittee, thank you so much for the 
opportunity to testify today on the need to restore the 
Superior Court of the District of Columbia bench to 61 
associate judges and a chief judge.
    I am Rufus G. King III, chief judge of the Superior Court.
    I think it is S. 550 which has come over that would take 
the Superior Court to the number of judges that were authorized 
with the passage of the Family Court Act of 2001--that is, 61 
judges, including its chief. This number is needed to ensure 
that all divisions of the court, not just the Family Court, 
have an adequate number of judges so that cases are handled 
fairly and expeditiously, that needed interventions can occur, 
and that our strategic performance standards are met.
    According to the National Center for State Courts, the 
District of Columbia courts have among the highest caseloads 
per capita and per judge in the Nation. Since the Family Court 
Act became law in January 2002--and, of course, I know, 
Congresswoman Norton, you are well familiar with that, as you 
played a critical role in that legislation--the number of cases 
pending in the Superior Court has risen by 30 percent.
    The court needs additional judges to properly manage this 
caseload, and there are several reasons. Recently, courts 
across the country have adopted a problem-solving approach to 
cases. In those courts, judges take on the task of not only 
resolving cases by trial or plea and a traditional sentence, 
but also establishing and supervising referrals of defendants 
to appropriate service providers. Indeed, this move goes much 
to what you have been discussing all afternoon.
    The goal is to address the issues underlying criminal 
behavior, such as drug dependency, homelessness, mental 
illness, and chronic unemployment, in order to reduce 
recidivism. Thus, in minor criminal cases, instead of a 
relatively efficient trial and closure by acquittal or 
sentence, the case results in an extended period of supervision 
while the defendant undertakes drug treatment and counseling or 
other appropriate services, during which the defendant may 
appear before the court a number of times.
    At the Superior Court we use these tools in our D.C. and 
Traffic Community Court, which handles minor misdemeanors and 
traffic offenses; our East-of-the-River Community Court, which 
handles all misdemeanors except domestic violence assaults from 
wards 7 and 8 in the city; our Drug Court, which handles non-
violent felony and misdemeanor drug offenses; our Juvenile Drug 
Court, which is the drug court for young offenders; our Family 
Treatment Court, which provides drug treatment for parents 
without breaking up the family; and our pilot Mental Health 
Court initiative, which handles cases where mental health 
issues are predominant.
    These cases take more time to resolve, but the solutions 
reduce recidivism and thus ultimately will benefit both the 
court and the community, and hopefully in reduced recidivism 
rates.
    Also, pursuant to its second 5-year strategic plan, the 
Superior Court is implementing performance standards for each 
of its caseloads. Performance standards establish timelines 
within which cases should be resolved, and thus provide a 
measure of how well we are doing and where we can improve. 
There are other measures, such as age of pending caseload and 
trial certainty, that go to the same goal.
    We base our performance standards on what we have learned 
from courts across the country, and we seek to replicate those 
practices here. We have engaged in a rigorous strategic 
planning process designed to ensure that we are doing all we 
can to meet community needs, to be accountable to the public we 
serve, and enhance public trust and confidence in the 
judiciary. The additional judges called for in this bill would 
greatly enhance our ability to meet and in the future exceed 
those standards.
    As to the cost of the additional judges and staff, we are 
not asking for additional funding. Appropriations for the 
implementation of the Family Court Act provided funding in our 
base budget for the court to add judicial officers to handle 
family cases, raising the number of judges on our bench to 62. 
As you may be aware, when judges left the Superior Court and 
the size of the bench fell back down to 59, the Family Court 
Act limited us to only replacing Family Court judges unless the 
total number of judges fell below 59.
    The Family Court funding has enabled us to fully fund the 
Family Court, both judges, necessary staff, and several one-
time programmatic costs. As an example, our drop-in centers for 
juvenile offenders, where I believe you may have been present 
at the opening.
    As Federal agencies do, the D.C. courts strive to end the 
fiscal year with at least a 1 percent reserve designed to cover 
costs that become due after the close of the year, such as late 
invoices or utility expenses or contractual services performed 
at the end of the year.
    The court also experiences a vacancy rate among full-time 
employees, including sometimes judges, typical of the Federal 
agencies, which is around 3 percent. Given the reserve and our 
typical personnel vacancy rate, we will be able to meet the 
cost of the additional judges and their staffs without an 
increase in the personal services line of the Superior Court's 
appropriation.
    The Superior Court intends to continue to manage its budget 
effectively and use the strong fiscal controls that have 
resulted in independent accountants giving us their unqualified 
financial audit rating with the highest possible rating for the 
past several years.
    I have conveyed to staff on both sides of the Hill, 
authorizing and appropriating, that the cost for these 
additional judges will be met using existing Superior Court 
funding levels. There will be no additional funds requested for 
appropriation.
    Congresswoman Norton, members of the committee, thank you 
for providing me with the opportunity to testify today and to 
talk about the Superior Court's caseload figures and the need 
for additional judges. I appreciate your support for our 
efforts and look forward to working with you to ensure that the 
District of Columbia continues to have one of the strongest 
trial courts in the country.
    I would be pleased to answer any questions.
    [The prepared statement of Judge King follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Ms. Norton. We will hear next from Ms. Ballester.

                  STATEMENT OF BETTY BALLESTER

    Ms. Ballester. Thank you. Thank you, Congresswoman Norton, 
for allowing me to speak on behalf of the 2008 hourly rate 
increase for D.C. Criminal Justice Act and Council for Child 
Abuse and Neglect Program attorneys.
    I am the president of the Superior Court Trial Lawyers 
Association, which represents more than 350 attorneys who 
practice criminal law and traffic law in the District of 
Columbia. Today I am also speaking on behalf of more than 350 
members of the CCAN panel.
    The attorneys who represent an indigent in the District of 
Columbia are dedicated to their work and proud to be part of 
the Superior Court of the District of Columbia. The court has 
supported us very strongly over the years, and we appreciate 
that. Each of us on both the CCAN and the CJA panels was chosen 
after an application process reviewed by a committee of judges 
and, in some cases, a committee of peers. We believe that the 
indigent in the District of Columbia are entitled to competent 
representation.
    In March 2002, we received an increase in the hourly rate 
from $50 per hour to $65 per hour. We have received no 
increases in pay since that time. Inflation has continued since 
that time at a rate of 3 to 4 percent a year, and the cost of 
goods and services has continued to rise. The $65 an hour in 
2002 would be between $76 and $78 an hour today, and that is a 
conservative estimate.
    We are asking that the hourly rate be raised to $80 an hour 
and that the limit on cases be raised to $2,400 for misdemeanor 
cases and $4,600 for felony cases. The increase to $80 an hour 
would keep us on a par to what we received in 2002. We are also 
asking that this subcommittee make this increase effective as 
soon as possible. The money has already been appropriated.
    None of the attorneys who practices within the CJA or CCAN 
system receive any benefits. Each attorney pays for all of his 
or her insurance costs, including health, disability, life, 
home, and malpractice. Each attorney pays for his or her office 
expenses, including rent and utilities. Each attorney pays for 
all of his or her supplies, including research services, 
computer services, and any office help. Each of these attorneys 
pays for his or her transportation expenses, including the 
continuing rising cost of gasoline. None of these attorneys has 
any paid vacation or sick leave. Many of these attorneys are 
striving to send children to college and striving to maintain 
the stability of homes.
    The attorneys of the CJA and CCAN panels deserve a raise to 
$80 per hour. Oftentimes, they work more than 10 to 12 hours 
per day. They also work most weekends. They visit jails and 
out-of-State penitentiaries. They visit children who are placed 
in institutions or homes in other jurisdictions. They visit 
crime scenes, search for witnesses, and often find themselves 
in dangerous neighborhoods. They do this all to adequately and 
competently represent their clients, whether they be adults or 
children.
    Thank you again for the opportunity to speak. I would be 
glad to answer any questions you may have.
    [The prepared statement of Ms. Ballester follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Davis of Illinois [presiding]. You can go right ahead, 
Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman.
    Could I ask you, Judge King, you say on page 2 of your 
testimony that the District of Columbia has one of the highest 
caseloads per capita and per judge in the Nation. I thought I 
heard you say something about a 30 percent increase. Did you 
say that?
    Judge King. Yes.
    Ms. Norton. When was that increase? Over what period of 
time?
    Judge King. Over a period of time from 2002 until 2007 was 
the period measured.
    Ms. Norton. What accounts for such an increase?
    Judge King. The things that we are talking about and the 
greater complexity of the cases.
    Ms. Norton. I can understand that, but you said an 
increasing caseload. I am very sympathetic to what you say 
about judges, in fact, doing more than meting out sentences or 
the rest, but, in fact, doing some supervision themselves. But, 
I thought you were talking about a 30 percent increase in 
cases.
    Judge King. Well, there is a distinction between pending 
cases, which is what I referred to--that is the number we have 
to deal with--and filings, which are actually down a little bit 
over that period.
    Ms. Norton. We are not talking about filings; we are 
talking about cases that stay on the docket because of the 
involvement of judges.
    Judge King. That is correct. And that number has gone up, 
for the reasons that I outlined.
    Ms. Norton. You must have 15 on the Family Court; is that 
right?
    Judge King. Pardon?
    Ms. Norton. You must have 15 on the Family Court; is that 
correct?
    Judge King. Yes. That is correct, and, indeed, the proof of 
that--the wisdom of that provision has been that our Family 
Court has really been able to provide much better service and 
more current service in those cases.
    Ms. Norton. That is the whole reason we were able to get 
the overall----
    Judge King. Exactly.
    Ms. Norton [continuing]. Change for the entire court.
    Could I ask what is the status of this bill in the Senate 
and the status of funding in the Senate?
    Judge King. Well, the funding is done. There is no 
additional funding need for us. As I say, I asked our financing 
people to assure me that this wasn't something where I would 
have to come back next year and say, ``Wait a minute, we now 
need the funding.'' That is not the case.
    On the basis of the margin of error that we work on from 
year to year and on our vacancy rate, which is borne out by 
long experience, we will be able to meet this obligation 
without additional funding.
    As to the status of the bill----
    Ms. Norton. You know, if that is the case, why aren't you 
able to meet it right now on the basis of the vacancy rate?
    Judge King. I'm sorry?
    Ms. Norton. If that is the case, why aren't you able simply 
to bring these? Because you can't go above 59?
    Judge King. We are not allowed to go. We are just asking to 
take out--actually the way the law is written now is it says 58 
judges and a chief judge, and we are just asking you to change 
that number, 58, to 61, so that it would authorize us to do 
that. That is exactly right.
    I learned that S. 550 has passed the Senate and has been 
sent to the House, so it should be----
    Ms. Norton. That is this bill?
    Judge King. Yes, that is this bill. That is correct.
    Ms. Norton. I understand CBO has looked at this, 
Congressional Budget Office, and I know you understand that if 
somehow the vacancy rate----
    Judge King. We are aware that the CBO has, I think, scored 
it at about $1 million, which is a figure we are well aware of. 
That is an accurate----
    Ms. Norton. But you say D.C. courts strive to end the 
fiscal year with at least 1 percent budgetary reserve designed 
to cover costs that become due after the close of the year. Our 
experience is only a portion of this reserve is typically used. 
How much of the reserve is typically used?
    Judge King. It varies. I can give you more detail. I know 
that----
    Ms. Norton. One thing you don't want to get into is over-
obligation.
    Judge King. That is right. Absolutely. Of course we don't 
want to do that, and I am assured that we won't. We will find--
--
    Ms. Norton. I favor this bill, I must say, and you say it 
is based on long experience looking at vacancies. What do you 
mean? Since you have been at Superior Court? You have been at 
Superior Court for about 30 years or more?
    Judge King. Not quite that long, but yes, certainly since 
1971, when I was admitted to the Bar and began practicing in 
the court. There have always been some vacancies among the 
judges, indeed.
    Ms. Norton. You do recognize that if there weren't this 
over here, we are on pay-go.
    Judge King. Yes.
    Ms. Norton. And therefore it depends entirely on your not 
over-obligating funds, on if you find yourself in a bind you 
taking it out of something else?
    Judge King. Yes.
    Ms. Norton. Because you are would be annualizing three more 
judges?
    Judge King. Yes, three.
    Ms. Norton. With all that implies in terms of their 
benefits, in terms of their salaries.
    Judge King. That is right. It is about $1 million, and we 
have assessed it on that basis. And I fully understand, of 
course, the House, especially because you are on pay-go, needs 
to know that you are not going to hear from us again on this 
subject if this bill is passed.
    Ms. Norton. Well, I am certainly for this bill.
    Ms. Ballester, I am for this bill, your bill, as well. I 
don't quite understand why it matters to Congress that each 
attorney pays his or her office expenses. That is what lawyers 
do, pay for their own supplies. Nobody who has somebody on 
retainer, which is essentially what you would be, pays for 
those supplies. None of these have any paid vacation or sick 
leave. What lawyer in private practice does unless the firm 
allows that? So you make a case, but I am not sure why anybody 
who is seeking business with the Government ought to point out 
that rent, utilities, and the rest of it.
    Ms. Ballester. Well, I think what I am trying to say, 
Congresswoman, is that we are not employed by firms, and we do 
not----
    Ms. Norton. Well, some of you may be, mightn't you?
    Ms. Ballester. No. All of us are self-employed. We may have 
partnerships, but I think they----
    Ms. Norton. Well, all lawyers have partnerships, usually.
    Ms. Ballester. No.
    Ms. Norton. Most lawyers do not work for a corporation; 
they work for a partnership.
    The reason I am clarifying this is, I would not want it to 
be on the record here that somehow we believe that expenses 
beyond what it takes to fairly fund attorneys for representing 
the indigent should be taken into account. And to the extent 
that the record looks like we are saying that transportation 
expenses and the rest of it--I recognize if you are in a firm, 
a partnership, maybe you bill that into overhead. This, of 
course, has never been the case with respect to lawyers who the 
Government gives cases on the basis of indigency.
    You are talking about payment for services rendered, are 
you not?
    Ms. Ballester. Payment for services rendered. Yes, indeed, 
and the chief judge has just indicated to me the Federal rate 
now for indigent attorneys in the District of Columbia has gone 
up to $100 per hour for services and actually up to $120 an 
hour in capital cases. We obviously don't have any capital 
cases in Superior Court; however, we do have the same type of 
cases in Superior Court as there are in Federal court.
    We do believe that the $65 an hour is no longer a viable 
figure, and we just think that, with the money that has been 
appropriated, $80 an hour is a reasonable figure to ask.
    Ms. Norton. Well, I couldn't agree with you more, Ms. 
Ballester. When you consider what lawyers command for sitting 
in their offices these days, you are doing very serious work. I 
just wanted to make it clear so none of my friends on the other 
side think we are paying the transportation expenses or for 
your filings or vacation or sick leave.
    Mr. Chairman, thank you very much. Those are my questions.
    Mr. Davis of Illinois. Thank you very much. I certainly 
think there is a big difference between 80 and 800, so I 
certainly don't have a problem with that.
    Let me just ask you one question, Ms. Ballester. As 
president of the Superior Court Trial Lawyers Association, what 
would you consider to be the greatest difficulty of working 
with the D.C. Court?
    Ms. Ballester. Working in D.C.?
    Mr. Davis of Illinois. Yes.
    Ms. Ballester. I think probably what some of the people who 
testified earlier--the lack of programs for indigents in the 
District, especially effective drug treatment programs, because 
drug abuse is, by far, one of the biggest scourges in this 
city, and I think drives an awful lot of crime in the city.
    Mr. Davis of Illinois. Judge King, do you project there to 
be an increase of need for judges in D.C, say over the next 5 
to 10 years?
    Judge King. What we have experienced--and we actually had 
to look at this in terms of our building program. We are in the 
middle of a 10-year building program. Historically around the 
country, caseloads ebb and flow. It is a cyclical situation. We 
went way, way up in the late 1980's and early 1990's, then it 
leveled off. It is trending downward a little bit at the 
moment, back up again in some of the family cases. So over 5 or 
10 years I would expect a cyclical pattern with a slight 
general trend upward. That seems to be our historical 
experience, and that is what I would project.
    Mr. Davis of Illinois. I know that my good friend Tim 
Evans, Judge Evans, is the chief judge of the largest unified 
court system, I guess, in the country, which is the Cook 
County. I see Tim from time to time, and we may run into each 
other at church and whatever. He is always trying to figure out 
if they have enough judges.
    Judge King. I am sure. Please give him my cordial regards 
when you see him. I am well acquainted with him and have a good 
friendship with him, as well.
    Mr. Davis of Illinois. Well, thank you very much. Tim and I 
served in the City Council together, and we both left the City 
Council about the same time, almost the same time, so I will 
make sure that I do that.
    Judge King. I have always enjoyed and had the highest 
esteem for him.
    Mr. Davis of Illinois. Thank you. I favor both of these 
bills, quite frankly.
    Judge King. Thank you.
    Mr. Davis of Illinois. I want to thank both of you again 
for your indulgence, for your patience, and for being our last 
witnesses for the day, so thank you so much.
    This hearing is adjourned.
    Judge King. Thank you very much, Chairman Davis and 
Congresswoman Norton.
    Ms. Ballester. Thank you.
    [Whereupon, at 5:30 p.m. the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
